<html>
<title> - H.R. 2291, REAUTHORIZATION OF THE DRUG FREE COMMUNITIES ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
      H.R. 2291, REAUTHORIZATION OF THE DRUG FREE COMMUNITIES ACT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2291

   TO EXTEND THE AUTHORIZATION OF THE DRUG-FREE COMMUNITIES SUPPORT 
 PROGRAM FOR AN ADDITIONAL 5 YEARS, TO AUTHORIZE A NATIONAL COMMUNITY 
          ANTIDRUG COALITION INSTITUTE, AND FOR OTHER PURPOSES

                               __________

                             JUNE 28, 2001

                               __________

                           Serial No. 107-65

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
      

                       U. S. GOVERNMENT PRINTING OFFICE
79-781                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Jr., Tennessee           (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               ------ ------
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
              Nicholas Coleman, Professional Staff Member
                          Conn Carroll, Clerk
                     Tony Haywood, Minority Counsel
                           





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 2001....................................     1
Text of H.R. 2291................................................     6
Statement of:
    Dean, Arthur T., Major General, U.S. Army, retired, chairman 
      and CEO, Community Anti-Drug Coalitions of America; 
      Honorable Michael Kramer, judge, Noble County Superior 
      Court, Indiana, chair of Drug-Free Noble County and member 
      of the Advisory Board of CADCA; and Lawrence Couch, program 
      manager, Montgomery County Partnership, Maryland...........    78
    Levin, Hon. Sander, a Representative in Congress from the 
      State of Michigan..........................................    35
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio..............................................    27
    Vereen, Donald M., Jr., M.D., M.P.H., Deputy Director, Office 
      of National Drug Control Policy; and John J. Wilson, Acting 
      Director, OJJDP, Department of Justice.....................    48
Letters, statements, etc., submitted for the record by:
    Couch, Lawrence, program manager, Montgomery County 
      Partnership, Maryland, prepared statement of...............    94
    Dean, Arthur T., Major General, U.S. Army, retired, chairman 
      and CEO, Community Anti-Drug Coalitions of America:
        Information concerning selected outcomes.................    98
        Information concerning Lessons From the Field............   102
        Prepared statement of....................................    81
    Kramer, Honorable Michael, judge, Noble County Superior 
      Court, Indiana, chair of Drug-Free Noble County and member 
      of the Advisory Board of CADCA, prepared statement of......    88
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................    31
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3
    Vereen, Donald M., Jr., M.D., M.P.H., Deputy Director, Office 
      of National Drug Control Policy, prepared statement of.....    51
    Wilson, John J., Acting Director, OJJDP, Department of 
      Justice, prepared statement of.............................    59


      H.R. 2291, REAUTHORIZATION OF THE DRUG FREE COMMUNITIES ACT

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Gilman and Cummings.
    Staff present: Christopher Donesa, staff director and chief 
counsel; Nicholas Coleman, professional staff member; Conn 
Carroll, clerk; Chris Barkley, intern; Tony Haywood, minority 
counsel; Lorran Garrison, minority staff assistant; and Peter 
Anthony, minority intern.
    Mr. Souder. The subcommittee will come to order. Good 
morning and thank you all for coming.
    This morning the subcommittee will consider reauthorization 
of the Drug Free Communities Act, particularly H.R. 2291, which 
was introduced by Congressman Portman last week. The Drug Free 
Communities Act is one of the pillars of our national demand 
reduction strategy and a priority for President Bush. This 
program also enjoys broad-based and bipartisan national 
support. It is intended to drive Federal assistance for 
prevention and treatment programs directly to the communities 
where it can do the most good to help parents and neighbors to 
keep children away from illegal drugs.
    Since its enactment in 1997, the program has a proven 
record of success, and I am glad to have the opportunity to 
consider and strongly support its reauthorization in this 
subcommittee. From Nome, AK, and Kauai, HI, to Kendallville, 
IN, and Montgomery County, MD, we have seen how Drug Free 
Communities Coalitions can make a difference in individual 
cities, towns and counties across America. The program now 
assists 307 communities in 49 States, all of which are funded 
primarily by private sector, State and local dollars. I look 
forward to hearing from our witnesses about the many success 
stories which have come from the program.
    I want to thank Congressman Portman and Congressman Levin 
for their bipartisan leadership on this legislation along with 
Senator Grassley and Senator Biden.
    The bill recognizes the administration's priority to 
increase overall funding for the program in fiscal 2002 from 
$43.5 million to $50.6 million and steadily increases the 
programs authorization to $75 million in fiscal 2007. It also 
addresses an issue which has been of some concern by allowing 
previous grantees to compete anew for program support after 5 
years. H.R. 2291 also envisions improvements to the program by 
allowing supplementary grants for leading coalitions to mentor 
new coalitions in their area and the creation of a National 
Community Anti-Drug Coalition Institute which would provide 
technical assistance to coalitions in expanding the program to 
new communities.
    While I strongly support this legislation, I also want to 
ensure that any reauthorization bill reported by this 
subcommittee reflects the original goal of the program to move 
Federal assistance directly to the communities who are doing 
the work.
    I look forward to further testimony and explanation from 
today's witnesses with respect to the proposal to more than 
double the statutory cap on administrative expenses for the 
program from the current 3 percent to 8 percent, about which I 
have some concern. In the outyears of the program, this 
increase in administrative costs potentially represents grants 
to 35 additional communities.
    I would also like the subcommittee to be satisfied that in 
the course of laudable efforts to expand and improve the 
program we do not inadvertently create or fund duplicative 
Federal efforts. In particular, I hope to hear from witnesses 
how the program will reconcile multiple entities who would have 
such tasks as technical assistance and training to local 
coalitions, including the Office of Juvenile Justice and 
Delinquency Prevention at the Justice Department, the new 
mentoring coalitions and the proposed new Institute.
    We have excellent witnesses with us today to discuss the 
overall track record and benefit to the Drug Free Communities 
Program as well as the proposed legislation.
    Our first panel consists of Congressman Rob Portman from 
Ohio and Congressman Sander Levin from Michigan, who worked 
tirelessly to create this program and have carefully nurtured 
it over the years to the success that it is today.
    On our second panel we have Dr. Donald Vereen, Deputy 
Director of the Office of National Drug Control Policy, and Mr. 
John Wilson, Acting Director of the Office of Juvenile Justice 
and Delinquency Prevention at the Justice Department.
    On our third panel we will welcome true leaders of the 
community coalition movement, including General Arthur Dean, 
the chairman and CEO of the Community Anti-Drug Coalitions of 
America; my friend Judge Michael Kramer from Noble County, IN, 
in my district, whose coalition won a national award from 
CADCA; and Mr. Lawrence Couch, the program manager for the 
Montgomery County partnership in Congressman Cummings' home 
State of Maryland. We look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder and the text 
of H.R. 2991 follow:]
[GRAPHIC] [TIFF OMITTED] 79781.001

[GRAPHIC] [TIFF OMITTED] 79781.002

[GRAPHIC] [TIFF OMITTED] 79781.003

[GRAPHIC] [TIFF OMITTED] 79781.065

[GRAPHIC] [TIFF OMITTED] 79781.066

[GRAPHIC] [TIFF OMITTED] 79781.067

[GRAPHIC] [TIFF OMITTED] 79781.068

[GRAPHIC] [TIFF OMITTED] 79781.069

[GRAPHIC] [TIFF OMITTED] 79781.070

[GRAPHIC] [TIFF OMITTED] 79781.071

[GRAPHIC] [TIFF OMITTED] 79781.072

[GRAPHIC] [TIFF OMITTED] 79781.073

[GRAPHIC] [TIFF OMITTED] 79781.074

[GRAPHIC] [TIFF OMITTED] 79781.075

[GRAPHIC] [TIFF OMITTED] 79781.076

[GRAPHIC] [TIFF OMITTED] 79781.077

[GRAPHIC] [TIFF OMITTED] 79781.078

[GRAPHIC] [TIFF OMITTED] 79781.079

[GRAPHIC] [TIFF OMITTED] 79781.080

[GRAPHIC] [TIFF OMITTED] 79781.081

[GRAPHIC] [TIFF OMITTED] 79781.082

[GRAPHIC] [TIFF OMITTED] 79781.083

[GRAPHIC] [TIFF OMITTED] 79781.084

    Mr. Souder. Now I would like to yield to Congressman 
Cummings for an opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Today's hearing offers a welcome opportunity to review one 
of the most successful and least controversial initiatives in 
our national war on drugs. At a time when much of our Nation's 
anti-drug policy seems caught in political cross hairs, the 
Drug Free Communities Program enjoys broad bipartisan support.
    I am proud to say that I have been a strong supporter of 
the DFCA since its enactment, and I have strongly supported 
increases in the funding for many programs in subsequent years. 
I am just as proud to be an original cosponsor of the 
reauthorizing bill before us today.
    This year, H.R. 2291's primary authors, Congressman Portman 
and Congressman Sander Levin, deserve congratulations for their 
committed work in putting together a bill that will sustain the 
near universal support the Drug Free Communities Program has 
enjoyed since its inception. The Bush administration, too, 
deserves credit for recognizing the value of this program by 
accommodating in its fiscal year 2002 budget request increased 
funding levels that are set forth in H.R. 2291.
    The 5-year reauthorization and increased funding levels 
provided in H.R. 2291 are designed to breathe additional life 
into an already vital and small-scale program that attacks the 
problems of substance abuse where it resides, namely, in our 
communities and especially among our youth. Moreover, in 
addition to continuing congressional commitment to assisting 
the concerted grassroots efforts of communities to address 
their substance abuse problems at their source, the bill 
contains several new provisions that make it responsive to both 
the needs of struggling coalitions and the desire of thriving 
coalitions to pass on the benefits of their experience.
    I must say, Mr. Chairman, that I am most impressed by this. 
Because in the Baltimore city limits, which is--I guess I 
represent about 55 or 60 percent of Baltimore city, I would 
imagine you would have probably somewhere between 75 and 150 
organizations that could use these funds and could use them 
effectively and efficiently.
    A reasonable increase in the program's administrative cost 
cap, new supplemental mentor grants, expanded eligibility for 
coalitions that have completed their 5-year funding cycle and 
the newly proposed National Community Anti-Drug Coalition 
Institute would not only increase ONDCPs' and the OJJDPs' 
ability to serve Community Anti-Drug Coalitions but also 
empower coalitions further to help themselves and each other.
    Just this past week I visited three organizations in my 
district who have anti-drug efforts going on, and one of the 
things that was clear was that it would have been very helpful 
if they had some other organizations that had been successful 
to mentor them and to provide them with advice. It's not a 
question of whether people have the will. The question is 
whether or not we can equip them with the information and the 
resources to do the things that they want to do.
    People want to take back their communities. They want their 
communities to be the best that they can be. They want their 
property values to go up. They want their children not to be 
involved in drugs. The question is whether we will provide the 
resources and whether we will provide the information so that 
they can be most effective.
    Although I understand that there are a couple of aspects of 
the legislation that have raised some concern, I know, more 
importantly, Mr. Chairman, that you strongly support the Drug 
Free Communities Program as I do. Thus, it is my hope that the 
witnesses will address your concerns satisfactorily today, Mr. 
Chairman, and that, in any event, we will be able to proceed to 
a markup on this important legislation in the very, very, near 
future.
    I thank all of the witnesses for appearing before the 
subcommittee today, and I look forward to hearing from you all. 
And I want to thank everybody in the room, in case we don't get 
a chance to thank you, for doing what you do every day to lift 
up our Nation and to attack this very, very serious problem 
that we have in so many communities throughout the country.
    With that, Mr. Chairman, I thank you.
    Mr. Souder. Thank you.
    Before proceeding, I would like to take care of a couple of 
procedural matters.
    First, I'd like unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record; that any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection, it's so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by Members and the 
witnesses may be included in the hearing record and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    I would like to welcome our first panel, Congressman Rob 
Portman and Congressman Sander Levin. It's a pleasure to have 
you both here.
    Following standard committee practice, we recognize your 
oaths of office and will not swear you in as other witnesses to 
the panel are sworn in.
    Congressman Portman, you are recognized for your opening 
statement.

  STATEMENT OF HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Portman. Mr. Chairman, thank you very much for agreeing 
to move this legislation on an expedited basis and having a 
hearing today.
    I think there are a number of opportunities you are going 
to have on the additional panels to get into the issues, but 
Sandy Levin and I would love to have the opportunity to have 
some questions, and I will try to keep my statement relatively 
brief.
    I'll start by saying that we appreciate your support and 
Mr. Cummings' support over the years. In 1997, we started this 
project together with your input, both of you, and with your 
support. We think it has been very successful, and we're here 
to try to reauthorize it now and improve on it.
    The whole notion of this program is to provide a Federal 
grant program directly to communities to encourage them to put 
together a comprehensive, long-term approach involving all 
segments of the community and to do it in a way that can be 
measured. And very significantly, of course, it's a 100 percent 
matching grant program, so every Federal dollar leverages 
tremendous nonFederal resources.
    We have so far been able to give these grants out to 307 
community coalitions in 49 States, D.C., Puerto Rico and the 
Virgin Islands. So it's been broad based. And again we think we 
have had some great successes out there in creating more 
coalitions as well as rewarding those doing a good job 
encouraging them to do more.
    Now this was a new approach. We had not tried this 
previously. It involves the Federal Government directly and 
local coalitions; and we did it because, frankly, many of us 
were frustrated with what we saw as a war on drugs that was not 
successful in getting at the demand reduction side. And 
effective prevention and education at the local level we 
thought worked, and we wanted to encourage it.
    We have found that coalitions are successful because they 
are focused on the individual communities. They devise specific 
strategies that work in very specific communities, and that 
means usually in a neighborhood often defined by a school 
district. I think that's the level at which we think we're 
going to find the most success and where we believe this has 
worked well.
    Also, these coalitions have to involve sort of all of the 
players that influence the decision of a young person, and 
that's law enforcement, and that's the faith community, and 
that's our schools and parents and teachers and business 
community. That we thought was a new approach in terms of the 
Federal Government encouraging and being involved and again one 
that we believe works very well.
    Congressman Levin and I have witnessed first hand how these 
community coalitions work. We both in our districts have active 
community coalitions. We've gotten very involved in them, and 
we are believers, and we think there ought to be a continued 
support network here from the Federal level.
    When we were all down at the White House hearing President 
Bush announced John Walters as his nominee for NADP, he 
stressed that the best way to reduce the supply on drugs he 
thought was to reduce the demand for drugs in this country. And 
as you recall he went on to specifically mention the Drug Free 
Communities Act as a way to do that. So we're pleased to see 
that kind of support from the administration.
    As Mr. Cummings has mentioned in the budget, we in greater 
Cincinnati have seen a lot of success with our coalitions. Let 
me give you just a few things we have done.
    We have trained over 6,000 parents. It was very intense. My 
wife and I went through that training. The courses they work in 
the sense of getting parents engaged in their kids' lives and 
ultimately sending those parents out as Ambassadors in the 
community to get other people engaged in talking to kids about 
the dangers of drugs, understanding, identifying what the 
problems are and having more informed parents and other 
caregivers, which is obviously crucial to getting at this 
problem in Cincinnati as well as around the country.
    There's also been a lot of partnering with the local 
media--TV, radio and so on. In our case, over $1.2 million has 
been provided through public service ads in the last year 
alone. This is all leveraging what the Drug Free Communities 
Act can do.
    We believe also that these coalitions have engaged members 
of the community who have not been previously involved. I 
mentioned specifically the business community, and in 
Cincinnati we have certainly done that, brought the business 
community in in ways never before seen. We have got over 100 
new drug-free workplaces in our area, for instance, in the last 
few years.
    The faith community. In some communities, the faith 
community is more involved than in others, but in many 
communities the religious community is less involved today than 
they may have been back in the 1980's. This was the case in our 
area, and we've seen a redoubling of effort there. We have 
spearheaded the Faith Community Initiative, which trained over 
100 local congregations to implement substance abuse prevention 
programs in their churches, mosques, synagogues; and that's 
very exciting to me. We're adding value, and I think you are 
seeing that around the country.
    We have also, Mr. Chairman, made it a point, Mr. Levin and 
I, not to make this just a bipartisan effort which we have 
worked hard to do but also make it bicameral and make, 
hopefully, all of our jobs easier. We have worked closely with 
Senator Grassley and Senator Biden to come up with identical 
legislation in each body, at least as we introduced it, to not 
only get this through the House but hopefully get it through 
the Senate and get it to the President's desk to be signed with 
the least amount of difference between the Senate and the House 
legislation. It provides reauthorization through the year 2007.
    It also authorizes, as you know, a new Anti-Drug Coalition 
Institute to help provide education, training and technical 
assistance to coalitions which is something we have identified 
over the last several years as a need. This Institute will also 
be helpful in developing and disseminating evaluation and 
testing mechanisms to assist coalitions in measuring and 
assessing their performance.
    I said at the outset that's one of the unusual aspects of 
this legislation from 1997, that we really wanted to be sure we 
were measuring our results; and this Institute would be very 
helpful in providing technical assistance to coalitions to be 
sure we're doing that.
    Ultimately, Mr. Chairman, as you know, the goal here is to 
get as much bang for the buck out of the Federal dollar and not 
to spend money on administrative costs and overhead; and I 
think we have been true to that and been tough on that. We want 
to send the most dollars we can directly to the communities, 
with a minimal amount being spent on administrative expenses.
    Although there is an increase here from the 3 percent cap 
we established in 1997, I am pleased that the bill does cap 
administrative costs at what I think is a modest level that 
apparently ONDCP, OJJDP and the Advisory Commission of the drug 
communities have all agreed on.
    The Advisory Commission, by the way, is made up largely of 
people representing coalitions around the country, so they have 
a pretty good feel for what is needed I think at the 
administrative level.
    We can talk more about this later. I think you may have 
some questions. I'd love to talk about it.
    But the notion is just to be sure we have the people 
available to monitor what is going on with these grantees 
around the country. The mentoring we can talk about later. I 
don't want to get into a lot of detail on that.
    But what this does is it allows more mature coalitions to 
help other coalitions get off the ground. The statement from 
the Institute we can talk about later. But I think it makes 
good sense to provide some funding, and it is very limited 
here, less than 5 percent, as you know, for the mentoring side 
of it to be able to let more mature coalitions pass on their 
know-how to others.
    We also have a new provision here that you can't apply for 
a second round of grants unless you are willing to increase 
your own match. So it goes from, you know, 100 percent to 125 
after a 5-year period, which I think is a nice innovation of 
this legislation; and it's trying to respond to the need of not 
having coalitions get too reliant on the Federal side but to 
force them to look more into local and other nonFederal 
sources.
    Finally, I just want to thank you again, both of you, for 
all your help and, Mr. Chairman, for your willingness to 
schedule this hearing so speedily after the introduction of the 
bill and to work with us to try to get this to the President 
get it signed into the law to be able to continue this good 
program.
    Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Hon. Rob Portman follows:]
    [GRAPHIC] [TIFF OMITTED] 79781.004
    
    [GRAPHIC] [TIFF OMITTED] 79781.005
    
    [GRAPHIC] [TIFF OMITTED] 79781.006
    
    [GRAPHIC] [TIFF OMITTED] 79781.007
    
    Mr. Souder. Congressman Levin.

 STATEMENT OF HON. SANDER LEVIN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Levin. Thank you very, very much. Rob and I are pleased 
and proud to be here. We're proud parents of quite a few 
children, each of us, and, in my case, grandchildren. We're 
most proud of them. But in terms of legislative children, if 
you want to call it that, I think we're very proud parents and 
glad that you are also parents of this program and so many 
other people are who are in this room and not in this room 
today.
    My interest in this originated with, No. 1, the urgency of 
the issue. Hello, Mr. Gilman. I just saw it first hand, how the 
problem had exploded, even beyond that of my children's 
generation; and it was serious enough then compared to when I 
was a kid. It was also, though, originated because of what I 
saw was going on in the local communities, and in that case, 
really, one community more than others, Troy, the city of Troy, 
and the leader then was Mary Ann Salberg, who is now chair of 
the Advisory Committee.
    It's been sustained by what I've seen happen in the local 
communities in the ensuing years, the blossoming of involvement 
and interest at the grassroots and how that is an essential 
ingredient in the battle to gain control of drugs and their 
effects.
    So in a sense, I think that is all that needs to be said 
except to talk about the future. So let me comment on just a 
few points.
    First of all, the mentoring provision in the Institute, in 
your statement, Mr. Chairman, you raise questions about that, 
and let me just say how I see it. Mentoring, it's been so 
valuable to have experienced organizations work with other 
communities. There was money that came through this program, 
and Rob and I have talked about it, that went to a community to 
mentor other communities, and it's really been invaluable.
    One of the problems we have in a free society--it's even 
more so in a nonfree society--but in our wonderful, 
rambunctious society of the United States is replication. We 
have successes, but it's hard to spread the word and the 
experience, and I think that's the value of our nurturing more 
mentoring.
    The Institute, as I see it, takes the experience more 
nationally, more globally and tries to help us learn from those 
experiences and spread the word even more broadly than can be 
done by mentoring, which after all, has some geographical 
limits and also helps with the evaluation and assessment of 
success and failure. Because, like any program, there are 
failures as well as successes; and I think the Institute can be 
very, very helpful in analyzing and assessing local experience 
on a national basis. So I believe, in addition to the expanded 
reauthorization amounts which are important, because the demand 
here has been, I think, gratifying, we didn't create it. We 
didn't go out and spawn these applications. They kind of poured 
in because of local need.
    Last, in terms of the question of the cap, other witnesses 
perhaps can address this more effectively than I. I know that 
an issue arose before, and I think legitimately so, and a 
report was issued after considerable inquiry, and I would urge 
that we use that comprehensive report as a base for a 
continuation.
    So I close with this, to congratulate you who are so 
interested in this, who now have such major responsibilities 
for nurturing this infant that is now more than crawling, it is 
more than walking, it's kind of running; and I guess we have to 
make sure it has an effective adolescence.
    Thank you very much.
    Mr. Souder. Thank you.
    Mr. Gilman, would you like to make a statement?
    Mr. Gilman. Thank you, Mr. Chairman.
    This seems to be drug day. We started off earlier today 
with the Colombia Plan. We're going into another hearing very 
shortly on the Andean Ridge.
    I want to welcome our two good colleagues who are here 
today and giving us the best of their thinking on a very 
important measure, Mr. Portman and Mr. Levin. We want to thank 
you for your continued support of what we should be doing in 
communities.
    You know, when I was in the State legislature many years 
ago, it was Governor Rockefeller then who had drug-free 
community programs and put a lot of money into it and was very 
successful. But over the years, as the drug problem waned 
temporarily, it sort of faded out in the distance, and I am 
pleased that you are doing the DFCA program.
    Let me just say this to both of you. This program I think 
is a major component of our national demand reduction strategy; 
and over the last 5 years, through its program of distributing 
grants to our communities, the DFCA has demonstrated itself to 
be a resounding success. We can put billions of dollars into 
our drug war in eradication at its source, in interdicting and 
distribution and providing the kind of enforcement when it 
reaches our shorelines to try to put away the drug traffickers 
and then to do some things about prevention in educating our 
young people and then treating those who are victims. But the 
most important of all of these efforts I think are right in our 
own communities; and unless our communities are involved and 
unless we can convince the parents, the teachers, the schools, 
the churches, the synagogues, all of them to become involved, 
all of those billions of dollars go down the drain because 
we're not doing enough in demand reduction.
    I think your program is an excellent program. I think the 
success is due in part to the nature of the grant recipients, 
various anti-drug coalitions; and I think these coalitions are 
community groups containing representatives of our young 
people, our parents, our private industry, our media and 
President, law enforcement and health care professionals, 
religious and civic leaders working together to provide a 
cohesive anti-drug message and strategy.
    The DFCA reauthorization for an additional 5 years is 
something I fully support, and I hope our committee will fully 
support. I know our chairman is vitally interested in it. It 
increases overall funding levels. Prior awardees would be able 
to apply for new grants and, in addition, to be eligible for 
mentoring grants in order to help new coalitions with their 
initial startup efforts, which I think is significant.
    Mr. Chairman, the threat posed by illicit drugs is, you and 
I both know, is one of the more crucial national security 
threats facing our Nation; and we can't emphasize that enough. 
Several presidents have also labeled it a national security 
threat. And while some opponents have argued we spend too much 
on combating drugs, I can't conceive why they would say that. 
Those opponents ignore the extensive costs of drug use on our 
society if we were to add up all of the problems--the loss of 
youth, the loss of productivity, of health care, of all the 
other aspects that go into the drug problem.
    In addition to costs associated with supply and demand 
reduction, drug use costs billions each year, when we add up 
all of those expenses. Moreover, it's also the intangible costs 
in terms of broken families and destroyed lives, destroyed 
minds.
    Our children are on the front lines of the drug war, the 
primary target of both the drug producers and the sellers. The 
DFCA has a proven track record of success in reducing demand 
for drugs among our younger population. Given that today's 
adolescents are potentially the addicts of tomorrow, I 
wholeheartedly support extending and expanding this important 
Federal program.
    Just one question, if I may, Mr. Chairman. What is the cost 
of the reauthorization?
    Mr. Portman. Mr. Gilman thank, you for your statement, 
first, and for never taking your eye off the ball.
    Mr. Gilman. Thank you.
    Mr. Portman. Because from the days of Nelson Rockefeller 
until today's very different problems and faces, whether it's 
Ecstasy or new issues in the Andean Ridge, you, Mr. Rangel and 
others have kept your eye on the ball; and when the public's 
interest has waned--as you said, when we started this program, 
for instance, there had been a doubling of teen drug use in the 
previous 10 years. We knew that. And that's because we took our 
eye off of the ball. So you have been out there ever since I've 
been here in Congress and I know well before, doing that.
    We have for funding in 2002 proposed, as you know, $50.6 
million. Then it goes to $60 million in 2003, $70 million in 
2004, same in 2005, up to $75 million in 2006 and 2007. We had 
$40 million go out in 2001. So it's a slight increase over 
time. And, as Sandy said, that's really in response to the 
knowledge we have that there is a tremendous increase in 
demand.
    For instance, we'll have about 408 we think--and we will 
hear from Don Vereen and others later, but--coalitions that we 
awarded grants this year, as opposed to 307 last year. So it is 
a slight increase in funding over time, and it's consistent 
with the administration's budget as well.
    Mr. Gilman. Thank you, Mr. Portman. I think when you 
consider what we're spending on defense, this is minuscule and 
well spent, and I certainly urge full consideration for this by 
our committee. Thank you.
    Mr. Portman. Thank you.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Souder. First, let me say how much we appreciate both 
your efforts.
    Congressman Portman has been pushing our leadership into 
doing some prevention things and worked with our leadership to 
develop this legislation. I worked with Congressman Levin back 
when I was the Republican staff director on the Children and 
Family Committee in earlier lives of ours, and I know his 
commitment to children and families has been from the time he 
first came to Congress.
    I want to ask a couple of tough questions just to get your 
reaction to this. One of the problems with the traditional part 
of the drug war is, for example, we hear when we put money into 
Colombia that we don't see the results that we want. Part of 
the problem with the results--we did this as we went through 
the drug-free schools program, too, and really never did come 
up with a fair way to monitor the results. And the demand 
reduction programs seem to be similarly measured like the 
results in the other parts of eradication and so on. In other 
words, they're process oriented, that we hear how many people 
went to the program, how many people who were in the program 
didn't have the problem.
    But should there be some sort of a measurement like we 
demand from police departments? They ask this fundamental 
question: If you get a community anti-drug grant, did your drug 
use go down in your community or did it go up? Should we see an 
actual community change in the abuse of drugs? For example, 
Ecstasy is up from 3 percent to 8 percent in the last 2 years 
among high school students. Should that be equally true in 
places where they have the coalitions as where they don't?
    Mr. Levin. Should I tackle that first?
    I did not bring with me the materials put out by the 
various coalitions, but, Mr. Chairman, the more effective ones 
ask that question. Now, it isn't always easy, as you know, to 
obtain data by community. But I think it's fair enough to ask 
communities--and I do--how's it going? What has the impact 
been?
    My only caution on this is to remember the difficulty of 
obtaining data per community. Also, we have to keep in mind the 
question, what would it have been without these programs?
    But let me say that--and they're handing me for Troy--I 
didn't bring it. I now have it. So Troy--I'll just read the one 
paragraph, OK? And I want to mention that we encourage 
communities to do as Troy is doing.
    Where there's a problem, for example, of a spread in the 
use of Ecstasy or any other drug, I think community coalitions 
should be working on this, and they should be able to--at least 
they should try to assess the impact. So I'll just read you the 
one paragraph, OK? This is the Troy Community Coalition.
    There was a significant decline of students in Troy 
indicating that they have smoked cigarettes--this was on 
cigarettes--in their lifetime in grades 8, 10, 12 by 39, 20 and 
24 percent from 1998 to 2000. These declines are far greater 
than the national average.
    Then if I might just read one more paragraph, because I 
think it's relevant here.
    Troy students in the eighth grade increased their 
disapproval of their friends smoking marijuana from 77 percent 
in 1998 to 83 percent in 2000.
    Also, there's a figure here about Troy eighth graders first 
trying marijuana, and they drop from 7 percent to under 5 
percent in the couple of years where there was an emphasis on 
this. And then there's further data.
    So I think you have a salient question, and I think that we 
should be encouraging that as one of the tools of evaluation.
    Mr. Souder. Thank you.
    Mr. Portman.
    Mr. Portman. Mr. Chairman, I couldn't agree with you more.
    Sandy's talked about some of the information that we have 
been able to garner over the years, but, in fact, the substance 
abuse prevention does work. But this has been one of my great 
frustrations in this field generally, and you and I have talked 
about it, which is the lack of good measurement on the 
prevention side.
    We tried to do something new with this act back in 1997, as 
you know, which was to put in place some evaluation 
requirements that had never been in previous grant 
requirements, whether it was from the Federal Government or the 
State government, including CSAP or HHS and so on; and it's 
very difficult to do.
    But one of the reasons--and we're going to get to this in a 
second--where we want to increase the administrative cap 
somewhat is to be able to be sure that we are giving the 
coalitions better feedback on the evaluation that we're 
requiring from them as to how their program is working so that 
they can improve. Because one of the complaints we got from the 
community coalitions is there's not enough sort of help from 
Washington in telling them what we're doing with their 
evaluation and how they could then take their program and make 
it better.
    Then, second, is this institute. The notion in the 
Institute is best practices, basically. That is to say what is 
working and what is not working, taking the best out in the 
community in terms of performance measurement and spreading it.
    As you know, in our coalition we focus religiously on this; 
and some would say too much. I don't think too much. But we did 
our survey late last year. 47,000 students--which is almost a 
census; that's more than most of the big national surveys 
have--47,000 students, and we asked all the questions we 
possibly could that relate to the national surveys to be able 
to benchmark to see how we were doing compared to the 
nationals, including Monitoring the Future and the PRIDE 
survey.
    We also benchmarked as best we could every previous survey 
that had been done in our community, and there hasn't been one 
done in 2\1/2\ years. But every 2 years previous to that there 
had been one done in the public schools. Then there had been 
the PRIDE survey and now again in the suburbs and so on, and 
what we have come up we think is a template for the rest of the 
country.
    Again, every survey has got to be a little different 
because you want to try to benchmark back to your previous 
surveys in your area. But we're providing that as best we can 
to other people; and we'd love to, frankly, have the folks at 
ONDCP and OJJDP do more in terms of spreading the word as to 
how you can measure your results better.
    We measure absolutely everything. We have parent training. 
We give the parents a survey they have to get back to us on our 
approaches to different chemicals. We have the athletic 
directors and coaches come for the seminar. We then measure the 
performance of the seminar. But then 3 months out, 6 months out 
we ask them whether they are putting something in place; and we 
are getting great results. You know, 60 some percent of them 
are putting something new in place in their schools.
    So I agree with your question. Your premise is there's not 
enough testing, I think, in your question. I agree with you, 
and we have got to figure out a way to do it without 
overburdening coalitions with a lot of paperwork and red tape. 
I think one way to do it is to have this Institute because I 
think the Institute can provide some more of that technical 
help so they know how to evaluate their individual programs and 
then to come up with some sense of how they are comparing their 
community to communities that don't have coalitions.
    I would just say, our own community, we had the highest 
drug use ever in Cincinnati when we started our thing in 1994. 
Then our latest survey shows that, for the first time in 10 
years, we've got a reduction in hard drugs, leveling off of 
marijuana use after dramatic increases, you know, every year 
from the previous decade. We've got a slight uptick in alcohol; 
and I think in smoking we are about level, maybe a little bit 
up.
    But we feel like, as compared to other communities that 
don't have this coalition effort, that we have done better; and 
that's based on Monitoring the Future and PRIDE surveys and so 
on and certainly as compared to our past. So all I can tell you 
is I truly believe substance abuse works.
    We have got some other data here that CADCA has provided to 
me this morning, which I will be happy to provide to the 
subcommittee with your permission. But it shows, for instance, 
that in 1999, 10 percent of teens saw marijuana users as 
popular and it was 19 percent in 1997 and 17 percent in 1998. 
Now some of this is the Drug Free Media Act, some of it is just 
the American public getting reengaged with this issue. It has 
been said, you know, we kind of lost track of it. But I think 
these community coalitions deserve some credit for what we have 
seen in the last 3 or 4 years.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman.
    You know, I was just sitting here listening and, right 
now--I mean, I look at the list of--and I want to make this 
statement so you can get where I'm coming from.
    I was looking at Maryland and what is happening in 
Maryland. Montgomery County, which is our richest county, and 
all due respect, they got their grant. They got a grant. 
Baltimore City has not, which has the worst problem in the 
country with regard to that, in the country. Now, I don't know 
whether that's Baltimore City's fault, and I'm not here arguing 
over whether Baltimore City should have gotten it or not. I am 
sort of going at the aim of the program generally.
    I think the thing I like about this program is that it does 
go into the communities. Because one of the things that I've 
noticed since being in the Congress, gentlemen, is that there 
are a lot of people who make a lot of money off of the ills of 
society, and the people who are ill never get well. And I've 
seen it over and over and over again.
    I am beginning to look at some of the grants that come into 
Baltimore, research grants. There has been a lot of research. 
But then, after the research is over, the community is still in 
bad shape, and there's nothing to sustain anything. There's 
nothing even put in operation so that you even have something 
to sustain.
    So that is what I like about this program, and I'm trying 
to--and so I had to set that up to get to where I'm going to.
    When I look at the mentoring program and this institute, I 
think these are very, very important things, very important, 
because one of the things that all of us--and I tell my 
constituents constantly, if you want to know something the 
Republicans and Democrats agree on, this one thing, that our 
tax dollars--that your tax dollars will be spent effectively 
and efficiently, whatever the purposes are.
    So I guess I like the idea of organizations that have been 
doing it and have been effective to then take that and take it 
somewhere else, because I'm telling you probably from what I've 
seen in my neighborhoods, neighborhoods get more respect--I 
mean, in other words, if somebody is trying to accomplish 
something, like a neighborhood association wants to accomplish 
something, like getting guys off the corner selling drugs, they 
will listen to somebody who has done it, who looks like them, 
who has a similar situation, and they talk the same talk. They 
will listen to them.
    When it comes to the super experts, that is a whole other 
thing. So I think this is good. I think it is good for us to 
try to figure out how we can do this mentoring thing.
    The institute situation, as I think--I mean, as I 
understand it--is a good idea, because I think a lot of people, 
like I said in my opening statement, they really want to do 
something. They just don't know what to do. And as you all were 
talking and I started looking at all the material in front of 
us, I realized we have got different kinds of problems. I mean, 
in Michigan you've got--I don't know what Detroit is, but I 
know you've got Detroit, and you've got rural areas.
    You've got urban areas. The problems that I face in 
Baltimore City are things like the committee organizations who 
are tired of people selling drugs on their corners and tired of 
seeing their young people go down the tubes and tired of seeing 
their property values go down. I mean, big time. I mean, I live 
in a neighborhood where if you bought a house for $100,000 20 
years ago and put in $100,000 in improvements over, say, 10 
years, 10, 20 years, you can't even sell it for what you bought 
it for because of drugs. That is serious.
    So I guess what I'm saying to you is that--and then one of 
the things that kind of bothers me, it seems like the same 
organizations get the same--as I understand it, get the grants 
over and over again. Now, some people may say, well, that is 
because they want to continue and sustain what they are doing. 
I think that is important, but at the same time, I think the 
way they should be proceeding is the way that eventually they 
sort of get weaned off of this government support so that other 
organizations can have the benefit of the same thing, and going 
back to what I said about the organizations that come in and 
get rich off the ills of society, I don't want them to become 
so used to getting this money that they don't do all of those 
things that are self-sustaining. In other words, I believe in 
training people to control their own situations.
    Now, if government has to come in and put some dollars in 
to help them do some things that are really, really necessary 
for government to do, that is fine, but at the rate we're 
going, I think we'll have maybe--I think you said 307 that 
we've already helped. You know, I don't know how many of these 
have duplicated over and over again, but believe me as I said 
just now, I would imagine that in my city, we've got--we can 
put--I can easily put together 100--at least 75 coalitions, 
easy, easy, and--all of whom are suffering greatly, and all of 
whom have a will, but they don't have a way, because they just 
don't know what to do.
    So, you know, I just point that out for the future 
witnesses that will come up, too, that, I mean, it is just 
something we need to give consideration to. I'm not trying to 
say that this legislation is supposed to be the cure for 
everything, but I just want us to kind of look, say, 10 years 
from now and say, OK, what are we doing to really, truly 
empower people so that they build into the process and even in 
their application process, how they will, you know, eventually 
get to a point where they really don't need us. That is all.
    You might want to comment on that.
    Mr. Levin. Well, just--you said it so well, I should say 
nothing. Just a couple quick comments.
    I think it is so important that all of us here heard your 
statement, and I would think that one of the purposes of the 
Institute, for example, would be to implement that spirit. And 
I believe there has been sensitivity in the offices in terms of 
the applications. There is always a problem with any grant 
program that the applicants that need it the most, perhaps, are 
sometimes the least equipped to get in line. And we have to be 
sensitive to that.
    Second, quickly, one of the most useful meetings we had, we 
brought together all the coalitions, the suburbs--and I 
represent suburbs near Detroit and next to Detroit--and 
representatives of the city, including Congressman Conyers, and 
we had a really marvelous discussion about the coalition 
experience and how we could learn from each other, because 
there really isn't an urban-suburban line, a rigid line when it 
comes to these issues.
    So, Mr. Cummings, I believe deeply that Mr. Portman and I 
share your feelings; and that helped to inspire us in the first 
place, that kind of feeling. And from my experience working 
with the people who are now seated behind us, I think they've 
tried to implement this program consistent with your sentiments 
and you'll inspire us to do even better.
    Mr. Portman. Just briefly, Mr. Chairman, I am glad to hear 
that my buddy, Mr. Cummings, doesn't think this program is 
going to solve all of our problems. But we think it can solve 
some of them, and you have been a big part of how this thing 
was put together originally, and now you're the ranking member 
on the subcommittee. You wanted to be a ranking member because 
you have a lot of passion on this issue, and now you can do 
even more. But I think part of the answer is what Sandy says, 
that you only can give so much direction through legislation, 
and then you've got to let the people administer the program.
    We've tried to put in the report language and in the 
statute enough direction to give people a sense of what we're 
about; but we're about exactly what you're suggesting, and you 
know that, and that's basically being sure that this is going 
to communities that need it the most.
    Now, the communities do have to have some resources, and I 
mean that in the broadest sense, to be able to put together a 
group that can handle the Federal money in the way we want it 
handled, and that includes the assessment. We have a baseline 
requirement they have to give us, and the assessment stuff we 
talked, and Mr. Souder talked, about.
    And we also made it clear we want to wean people off this 
program. This is not about having the same money go to the same 
program that's more and more successful and can attract, 
therefore, other resources. It is just to move the money then 
to the next one. That is why there is the cutoff. You have to 
reapply after 5 years.
    And even when you reapply under this new one, you have got 
to come up with 125 percent match, not 100 percent match. In a 
way, it is punishing success, you could say, but in another 
way, it's doing exactly what you're saying.
    This is very limited money. I mean, we've got a--what, 
maybe an $18 billion war on drugs budget, depending on what you 
add into the war on drugs, and we're talking here about 
somewhere between $40 and $75 million. So it is a relatively 
small piece of the pie, but it can have, I think, enormous 
impact if it is used right, as you say.
    And I think they have done a pretty good job of spreading 
it. The challenge is--I think Sandy put it well--some of the 
communities that need it most are least equipped to handle the 
Federal program, because we do have some accountability and 
stuff in here that is very important to us as--you know, 
accountability for the Federal Government, if used right, the 
assessment that the chairman talked about, and that is where 
the mentoring would help.
    The mentoring is very limited; you know, it's less than 5 
percent of the funds. You've got to apply separately for it. 
Most coalitions won't apply for it; some will. Maybe Detroit 
will, maybe Cincinnati can now; and that probably helps.
    I mean, we do a lot of work in our little coalition with 
these communities that don't really have the resources. Again, 
broadly speaking, there is a community group, but it may not 
have enough volunteerism, enough help to be able to kind of get 
this thing off on its right feet and to be able to do the 
assessments and have any kind of reporting back and so on.
    So that is part of the answer. It's part of why the 
advisory committee that you're going to hear from later, I 
believe, came up with the idea of this mentoring idea of having 
coalitions that are successful. As you say, people are going to 
relate more to a neighborhood coalition, to maybe share some 
similarities, rather than the super experts coming in from 
Washington telling them what to do.
    That is part of the answer, but it is a tough, tough 
problem, and I think every coalition needs to be more focused 
on it; and we need, as legislators, to direct the good folks 
behind us as to what our goal is here as best we can.
    Mr. Cummings. I just want to make it real clear--and thank 
you, Mr. Chairman, for your indulgence--that I really believe 
in this. I think that of all the things that I've been a part 
of since I've been here, this is probably within the top three, 
no doubt about it, because I think we--you know, when I look at 
the pain that I see children experience, and if there is 
something that we can do to avoid that pain, this is the kind 
of thing that we've got to do. And so I didn't want you to get 
the impression that I--you know, I just want to make sure that 
we are, again, going back to that effective and efficient use 
of our dollars. And I'm sure the panelists who will come up 
behind you all will talk about that in a little bit.
    But thank you.
    Mr. Levin. Thank you. Thank you for your work.
    Mr. Souder. I want to thank you again for your leadership. 
This is an unusual subcommittee that's authorizing in an 
oversight, and so we have to ask tough oversight questions. 
Even though we're enthusiastic about the authorizing, we didn't 
ask you questions about the money because we all agree it needs 
more money. We need to fight in the appropriating process to 
make sure it's there, just like we have in other prevention 
programs.
    But I am going to continue to ask some questions about the 
overhead question, because it isn't just the 3 to 8 percent. If 
you take the 5 percent for mentoring and the Institute, which 
is 3 percent of next year's budget, that is an increase from 3 
to 16 percent in one swallow, and that 3 to 16 percent 
difference is 100 coalitions, or one-third of what we've done 
in the whole course of the bill.
    There is a natural tendency for any kind of program to 
proliferate its overhead and argue that, well, we could be more 
effective. There's no question that this needs to increase the 
overhead. They can't work at 3. We actually started higher and 
went down to 3. There is no question that there's merit to 
mentoring in the Institute. The question is, how much do we do 
at what time, because it makes the whole program vulnerable 
when you have an over-five-times increase in overhead, two-and-
a-half in the one department.
    And the extra problem that we have to work with here is, 
all three are saying that technical assistance and helping in 
grant requests and monitoring, in other words, the mission 
statement, with the exception of the mentoring, particularly 
the Institute and OJJDP, are telling us the same mission. So 
that's one of the things we are going to sort out in the 
hearing today, because if one can do one thing and another, 
another, that's another matter. But if they both say they're 
doing the same thing, we have an oversight obligation to 
address it.
    I also am concerned, and one of our dilemmas in addition to 
the paperwork and the accountability question, is the 
entrepreneurial and empowerment component that was part of this 
program. To the degree we try to replicate and have everybody 
do the same thing, you have less ownership because, to some 
degree, the success of this is the local pride. Even if it 
isn't an ideal model, it is theirs. And so much of this is the 
motivational function, and this is another balance between 
saying, here is what we need in accountability and here is what 
we need in empowerment and entrepreneurship.
    And then last, possibly one distinctive difference that 
could be from the traditional grant application that goes 
through the current system and the Institute and even the 
mentoring is to look at a different phase, which Congressman 
Cummings is addressing. Right now, the process comes in as far 
as who has the proposals that meet the standards and what are 
the best proposals.
    One of the things the Institute or the government could do 
if we're going to put more into overhead is identify the 
highest-risk communities and how to get them into the process, 
much like what we're trying to do in the faith-based initiative 
with the technical assistance. Because it is one thing to say 
who can apply for faith-based; it is another thing to say, how 
can we go and help those groups that have no idea how the 
government process works, that don't have an attorney, that 
don't have a CPA, that don't know how to do it. How can we get 
them the assistance to do it?
    Did you want to comment?
    Mr. Levin. I think, Mr. Portman, they want to hear from 
somebody else, so we should go. I would think that when the 
panels start, they will address the question, for example, for 
high-risk areas and how that has been taken into account in 
evaluating the grant applications. I believe there has been 
sensitivity to need within a community but also between 
communities.
    And also they will talk about the Institute and whether it 
is--I think it is a separate authorization, how you--mentoring, 
I don't think, is part of overhead.
    And last, replication doesn't mean identical programs. 
Replication, if it has effectiveness built into it, is going to 
be different, but take the best threads of a program and weave 
it into that community's needs. That is, anyway, what I mean by 
replication.
    So good luck. Mr. Portman probably will close it, with the 
panel. This is such a marvelous program, and you two have been 
so important--and Mr. Cummings's feelings about this as one of 
his top three, I think says a lot about the challenge before 
us--and we are proud to be working with the two of you and 
others. This is quiet work, but in the end, I think, may have 
more impact than some of the programs that have much higher 
profile. This is maybe below some radar screens, but this is 
where much of the action really is.
    Mr. Cummings. But that is just one--I'm sorry.
    Mr. Portman. First of all, my partner, Sandy, has put it 
well, and I won't try to add to what he said about the 
importance of the program. Let me just touch briefly, though, 
on your four points and then let you talk to the real experts.
    This 8 percent figure is a compromise figure between ONDCP, 
OJJDP, the Senate, Sandy and me; and I don't want to speak for 
Sandy on this, but we, I think, have come to realize that 3 
percent is too low. We were pretty tough initially, and 
frankly, we knew we were being pretty tough. We wanted to err 
on the side of getting the money to the communities, and we had 
a lot of pleas over the past 4 years as this program has become 
implemented to do more, and we held firm, feeling again that we 
really wanted to push on getting the money out and not creating 
a new bureaucracy. I think we feel as though, with these 
additional coalitions and the need for more oversight, it's 
important.
    Let me give you this just quickly. There are seven program 
managers now, as you know, that oversee an average of 44 
coalitions each, and if we increase, like we'd like to, with 
the same percentage, we're told that we're going to have about 
20 more grants on each portfolio. So each one will have 60-plus 
coalitions to oversee.
    And again, we were involved with some of these coalitions. 
We see what happens. Some coalitions need help more than 
others, but my concern is that we need to ramp that up a little 
bit to be sure we have the right oversight and we're getting 
the right technical assistance out. And so we're believers now 
in that.
    Maybe 8 percent is not a magic number. Maybe there is 
another number somewhere between 3 and 8 percent, but we know 
there's a need to raise that cap somewhat more, and we still 
keep a pretty good cap in place. Again, compared to any other 
Federal program, it's still stingy.
    The second issue is the Institute and the mentoring, and I 
think Sandy has said it well: The mentoring is not supposed to 
be overhead. I'm thinking how we would use it or how Detroit 
would use it. We already do a mini-grant program that we get 
from other sources to local neighborhood coalitions, and we 
give them a couple thousand bucks a year to help them get 
started, just to get a computer or just to get, you know, 
literally a rental space for an office so they can set 
something up to have some kind of continuity and some kind of 
organization. Sometimes they use it for materials, literally, 
to hand to the parents.
    So I don't think it is going to be so much overhead. It 
won't create more overhead for us if we were to get it in 
Cincinnati. What it will create is the ability to get money 
right out to these other coalitions and to monitor what they're 
doing. But--there will be some overhead in there, but it is not 
a--it shouldn't be viewed as the same thing as the 8 percent, I 
don't believe.
    The Institute, Sandy said there may be a separate 
authorization here. I'm not sure quite how that's going to 
work, but apparently it will be not out of these program funds. 
And it's--the idea of the Institute--there may be an overlap 
with OJJDP; and I hope the chairman will get into that and the 
ranking member, because I think it is important to understand 
the differences there. That would be my concern, that there not 
be overlap between the two. We need to be sure we have that 
fully vetted before we enact this legislation.
    Mentoring is not the same thing as overhead, because it is 
what we talked about earlier, the best practices and technical 
assistance and so on. We know there is a need for that and that 
will help to expand the number of coalitions.
    I couldn't agree with you more on entrepreneurship. That's 
a big part of this. I think Sandy is right. I'm just thinking 
about our own experience, when we have sort of gone from 
neighborhood to neighborhood trying to put models together. 
Everyone is different. In some neighborhoods, heroin is a 
bigger issue, for instance. In other neighborhoods, 
methamphetamine labs are starting to come up. Other 
neighborhoods have Ecstasy, and these Rave parties are a 
problem. And some already have a pretty good school-based 
program, for instance. Others have nothing in schools.
    So everyone is going to be a little different, and they 
should be. And that ownership is key to this. I mean, all of 
this is about leveraging local funds but also local spirit and 
entrepreneurship. So I see that as a potential problem, but I 
think if it is done right, it is not; because it needs to be 
part of--the whole purpose of this is to make sure it fits with 
the local community.
    We talked about that in our testimony. We talked about it 
in 1997. That's the whole focus of this.
    The high-risk neighborhoods, I agree with Sandy. You ought 
to talk to the experts who have looked at these. They do take 
that into account, I'm told.
    And finally, the faith-based side, as you know, we spent a 
lot of time on faith-based. Mr. Souder was the person who 
pushed us on that in 1997. We were doing some pretty pioneering 
work then. Now it's become a lot more commonplace, but we made 
sure that we did not step across the establishment clause line, 
and we were very careful not to do that. On the other hand, we 
all made it very clear in the legislation, there is important 
language that the faith community should be ``encouraged,'' not 
just ``can be involved,'' but should be ``encouraged to be 
involved.'' We didn't require it. And we talked about doing 
that, as you recall.
    There may be ways we can strengthen that, and I certainly 
would be very open to that, but the faith-based groups are 
doing a great job out there, particularly on treatment. And 
many of the prevention groups work with them. But the real 
potential is prevention, to get these faith-based communities 
as engaged in prevention as many are in treatment.
    I think you could have obviously a captive audience often 
on a Sunday or a Saturday, but more than that, just using those 
incredible networks they have to get the prevention message out 
is a huge potential for an increased prevention and education 
message.
    And so if we can do more of that, I'd love to work with you 
on that.
    Mr. Souder. And I want to make it clear that I don't think 
overhead is evil. Overhead is what it takes to administer a 
program. You have to fill out the forms. And so the question 
is, how much of a change does an individual program need? 
Because mentoring is not traditional overhead, but it is still 
money that is not going to the grantees.
    And so we have to look at it and say, in fact, we're 
increasing the management and technical assistance, and is that 
much overhead justified? It may, in fact, be because of the 
needs of the community.
    But to give you an illustration on the case load, in the 
maximum dollar a year, 2006 and 2007, to do the current case 
load would only take a 5, not an 8. To reduce it to 35, it 
would take a 5.5. To reduce it to 25, like the very beginning 
of the program, would take a 6.7. So we need to kind of look at 
those statistics, and it may be that we can do more in the 
program and be more effective with a little more overhead. But 
when you have that big a jump, you have an obligation to 
analyze it, and that is what my point was.
    Mr. Cummings.
    Mr. Levin. Good segue to your next point.
    Mr. Cummings. Just as you leave, gentlemen, I too want to 
thank you all for what you have done and what you will continue 
to do. But there is just one other thing I want to add, Mr. 
Levin.
    You know, you talked about the benefits of the program, but 
there is another benefit and that is, it empowers communities. 
It helps people to see what they can do in neighborhoods. And I 
don't know what we can do--I don't know how we can put a value 
on that when you have so many people who would become so 
cynical about, you know, making any change in their communities 
and whatever. But this kind of thing helps them know that they 
can make a difference; and that hopefully spreads into other 
areas beyond drug abuse and things of this nature.
    Thank you all.
    Mr. Souder. Thank you very much for coming.
    Would the witnesses on the second panel please come 
forward? You have got a good taste of what are likely to be 
some of our next questions.
    From the administration, we welcome Dr. Donald Vereen, 
Deputy Director of the Office of National Drug Control Policy; 
Mr. John Wilson, Acting Director of the Office of Juvenile 
Justice and Delinquency Prevention, Department of Justice. If 
you could remain standing as you come to the table, because as 
an oversight committee, it is our standard practice that our 
witnesses need to testify under oath. If the witnesses will 
rise and raise their right hands, I'll administer our oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have 
both answered in the affirmative. We will now recognize the 
witnesses for their opening statements, and I'd like to thank 
you again for being here today and working out your schedules 
to do so. We ask our witnesses to limit their opening 
statements to 5 minutes and include any fuller statements that 
they may wish to make for the record.
    Dr. Vereen, do you have an opening statement?

   STATEMENTS OF DONALD M. VEREEN, JR., M.D., M.P.H., DEPUTY 
 DIRECTOR, OFFICE OF NATIONAL DRUG CONTROL POLICY; AND JOHN J. 
     WILSON, ACTING DIRECTOR, OJJDP, DEPARTMENT OF JUSTICE

    Dr. Vereen. Good morning and thank you, Chairman Souder and 
Ranking Member Cummings and the distinguished members of the 
subcommittee, for this opportunity to testify today about the 
Drug-Free Communities Program. I've prepared an extensive 
written statement. At this time, I'd like to submit that for 
the record.
    I serve as a Deputy Director of the Office of National Drug 
Control Policy. I am a public health--with a public health 
background, covering the biology of the brain through the 
behavior of individuals and, most importantly, the health and 
functioning of our communities. I am a father, and the dangers 
of drugs are a threat to my own children and the Drug-Free 
Communities Program is there for all of our children.
    There are a couple of acknowledgments I want--it's 
important to make this morning. There will be two grantees, the 
Honorable Michael Kramer and Mr. Lawrence Couch in the third 
panel. I do want to draw attention to an advisory commission 
member, Henry Lozano of Big Bear, CA, and also a great 
prevention leader, Judy Cushing of the Oregon Partnership, who 
is also here.
    For more than 3 years, Congress gave ONDCP the 
responsibility for this fine program. While we are unusual in 
that we're a policy shop, Drug-Free Communities have given us a 
unique window to the communities in America. Not a day goes by 
that we do not hear from citizens of places such as Perrysburg, 
OH, Morgan County, IN, or the Nez Perce Tribe of Lapwai, ID. We 
receive calls with questions about emerging drugs, requests for 
help in designing new strategies, and even a few calls from 
parents who are discovering the risks of substance abuse for 
the first time.
    This feedback loop between America's communities and our 
Nation's principal policy office on drugs provides much added 
value for all of us. This program specifically addresses our 
goal to educate and enable America's youth to reject drugs. 
There are specific objectives in our congressionally mandated 
performance measures of effectiveness that this program is 
addressing.
    Our drug-free communities are our front lines on our--in 
this fight against drugs. Our work as a policy office is 
greatly enriched by the program. The coalitions' work to reduce 
substance abuse among our youth may strengthen collaborations 
among organizations and agencies that are both private and in 
the public sector and wouldn't normally naturally come 
together. They also serve as a catalyst for increased citizen 
participation in our effort to combat drugs. That is critically 
important.
    We have a wonderful advisory committee that the Congress 
created, which includes 11 active members who we collaborate 
with in some form or another almost on a daily basis. They were 
the ones who came up with the observation that mentoring needed 
to happen, and a part of where we are with this reauthorization 
is taking that into account.
    Although some of my colleagues on this panel may give 
examples of coalitions that are having a significant impact on 
our communities, I've got to tell you about at least one. 
Perrysburg Area Substance Abuse Prevention Partners is a 14-
year-old community coalition in Perrysburg, OH, which has never 
had any kind of State or Federal grant before being awarded a 
Drug-Free Communities grant in 1999. This community of 25,000 
has wisely leveraged their Federal support and greatly expanded 
the work of their coalition. They have developed a 
sophisticated Web site, where anyone can read about their 
underage drinking initiative; a community action lifeline; and 
a host of other initiatives, strategies and opportunities for 
citizen involvement. This work comprises the front lines, 
again.
    I refer you to the chart at the far wall. This gives you a 
snapshot picture. I can't list all of the community coalitions, 
but the story I just told you is 1 of 307 community coalitions, 
and this number will grow to more than 600 by September 2002.
    A new round of applications for our fiscal year 2001 were 
just received by OJJDP. Closing was this past Monday, and we 
received nearly 400 applications. With such an increase in the 
participation and interest this year, we expect to be able to 
announce between 140 to 150 new grants in September.
    The President's budget includes $50.6 million to expand the 
Drug-Free Communities Program for fiscal year 2002. That is an 
increase of almost $11 million. Congress is wise to continue to 
lead the Nation in this drug prevention initiative as it works 
to reauthorize this program, and we support the introduction of 
H.R. 2291. The bill will continue to ensure that communities 
leverage grant dollars they receive by matching grant funds 
with non-Federal support, including both monetary and in-kind 
contributions.
    The bill also provides for additional support via a 
National Community Coalition Institute. A couple of words about 
that. The Institute is there for two reasons. It is there to 
focus in on and to generate the specific research findings that 
these community coalitions need to not only improve in what 
they are doing, but to help create new coalitions. In much the 
same way that we have a National Institutes of Health to do 
research, it is still a lot of heavy lifting to apply that 
research where it actually belongs.
    In the case of--or to give the example of SAMHSA, if we 
focus on mental health, substance abuse and alcoholism 
research, a tremendous amount of work is needed to translate 
that research into action. More on that in the question-and-
answer period.
    Our partners include OJJDP. We would not be able to 
administer this grant program without OJJDP. We have important 
partners in the private sector. CADCA, the Community Antidrug 
Coalitions of America. They function under the leadership of 
General Art Dean, and they will inspire us with their own 
testimony. But we model this program after the local 
communities that they organized.
    We also are the focusers of research and science. It is 
very important to understand that this is not just a fly by-
night idea. Public health-based research, specific research, 
makes it very clear that this is the way to go in terms of 
focusing resources.
    We also need to take the investment that we have made in 
places like the National Institute on Drug Abuse, the National 
Institute on Alcoholism and Alcohol Abuse and benefit from that 
investment by being able to apply that knowledge directly into 
communities so that the leaders and the members of these 
coalitions can apply it appropriately.
    So we thank the committee for this opportunity to offer our 
support for this very important legislation on behalf of the 
President, and as you know, he has committed his administration 
in an all-out effort to reduce drug abuse, and community 
coalitions will be in the vanguard of that effort. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Dr. Vereen follows:]
    [GRAPHIC] [TIFF OMITTED] 79781.008
    
    [GRAPHIC] [TIFF OMITTED] 79781.009
    
    [GRAPHIC] [TIFF OMITTED] 79781.010
    
    [GRAPHIC] [TIFF OMITTED] 79781.011
    
    [GRAPHIC] [TIFF OMITTED] 79781.012
    
    Mr. Souder. Mr. Wilson.
    Mr. Wilson. Thank you, Chairman Souder and Ranking Member 
Cummings. The Justice Department's Office of Juvenile Justice 
and Delinquency Prevention--oh, sorry. Thank you. Welcome----
    Mr. Souder. It is still not working. Could you maybe switch 
to the other mic?
    Mr. Wilson. We welcome the opportunity to discuss our role 
in the Drug-Free Communities Program with you. Since 1998, 
ONDCP and OJJDP have shared an important mission to develop and 
administer a successful Drug-Free Communities Program. We have 
forged a strong and productive partnership. I am always 
impressed by the tenacity, innovation and dedication of the 
broad-based community coalitions that this program supports.
    In the area of delinquency prevention, we have learned 
about the power of communities who come together to make 
investment in children, to make a commitment to programming and 
have ownership of the programs. And with the increases in 
arrests of juveniles for drugs, we see our participation in 
this program as vital to our statutory responsibility to help 
prevent kids from getting into delinquent conduct and 
eventually getting into our criminal justice system.
    Since 1999, OJJDP and ONDCP had explored ways to remedy the 
fact that the effectiveness of the Drug-Free Communities 
Program is being endangered by a lack of program support funds. 
My written testimony details this problem and makes, I believe, 
a strong case that an adequate level of program support funds 
is critical to the long-term success of this outstanding 
program.
    Since the program's inception in fiscal year 1998 with the 
award of 93 coalition grants, we have grown to 307 grants in 
fiscal year 2000 and expect, as Dr. Vereen said, to add over 
140 new coalition grants this year. This is nearly a fivefold 
increase, yet the program support dollars, which were designed 
to support both ONDCP and OJJDP program administration, 
training and technical assistance and evaluation, have only 
increased from $1 million to $1.2 million since the program 
began.
    One result is that OJJDP's Drug-Free Communities Program 
staffing level has remained at seven professional staff and one 
clerical staff this year because of the lack of any available 
administrative funds to hire additional staff to manage the 
program.
    Simply stated, the current law does not allow an increase 
in administrative, or what I call ``program support funds'' 
commensurate with the continuing expansion of the program. Our 
program managers who are responsible for Drug-Free Communities 
Program implementation are currently carrying an average of 44 
grants, compared with the average work load of 26 grants for 
Office of Justice programs and OJJDP discretionary program 
staff.
    This high number limits their ability to monitor existing 
grants; package, award and administer new grants; and provide 
program-related technical assistance. We strongly believe that 
the bill's 8 percent program support fund cap provides an 
appropriate balance between direct coalition funding and 
efficient processing, award and administration.
    It will also allow us to support program evaluation to meet 
training and technical assistance needs--not us, but the 
program--and also cover those grant processing administrative 
costs, some of which are currently being absorbed by OJJDP, but 
for which funds may not be available in the future. Absent 
enhanced funding support, the ratio of grants to program 
managers following the award of fiscal 2001 funds is projected 
to reach 66 grants.
    Our program managers provide critical support in the areas 
of management and operations, program development and provision 
of cutting-edge information on substance abuse prevention 
efforts. Many fledgling coalitions rely on the guidance of 
their program manager and seek it regularly. Given the nature 
of the program and its expansion, this need for programmatic 
support will not diminish. In fact, it will increase greatly.
    Program managers also reach out to communities that are 
interested in applying for funds. This year our program staff 
in partnership with ONDCP and others conducted seven applicant 
workshops designed to enhance the understanding of the Federal 
application process, grant writing and to explain how the Drug-
Free Communities Program could support their coalition. And we 
held one of these workshops in the Baltimore area, and I am 
hopeful that this does pay off in a coalition just being 
successful in the Baltimore City or the Baltimore--or Baltimore 
County area.
    In addition, the program team, in conjunction with our 
juvenile justice clearinghouse, developed and implemented a 
comprehensive outreach plan to communicate this funding 
opportunity to the field. It has been a big success in reaching 
tribes, rural communities and new coalitions. As Dr. Vereen 
mentioned, this week we received 361 applications in response 
to the fiscal year 2001 solicitation, compared to 228 in fiscal 
year 2000. Subtracting the 94 new coalitions funded last year, 
this means that at least 227 new coalitions have applied for a 
fiscal year 2001 award.
    Another critical factor in investing in adequate staffing 
levels is to protect taxpayer funds. Our program managers are a 
critical resource and liaison to grantees who are attempting to 
navigate the Federal grant process. Program managers help 
facilitate clearance of the grantee's budget, conduct proactive 
grant monitoring to ensure that the grantee is in compliance 
with all Federal requirements, ensure that the grantee is 
making progress and achieving coalition goals, and protect 
against waste, fraud, abuse and mismanagement.
    In sum, an investment in program support will pay great 
dividends for community drug coalitions and will help us 
achieve our common goal to strengthen community coalition 
efforts to reduce substance abuse among youth. The Drug-Free 
Communities Program brochure that we use shows rows of homes 
with each house having its own foundation. This program, too, 
must have a solid foundation in order to flourish and continue 
meet both your expectations for a quality program and the 
dreams of the American people for drug-free communities. 
Increasing the program support cap to 8 percent will provide 
this foundation, reduce program vulnerability and protect both 
the Federal investment and the matching investment that 
communities and their coalitions are making to the Drug-Free 
Communities Program.
    I also want to assure you that ONDCP very carefully looks 
at our budget every year and asks a lot of questions about it. 
I also think it's important to remember that the 8 percent is a 
cap, not an automatic amount of money. And certainly all of 
that money does not come and should not come to our office, 
only what we can clearly justify as being in the best interest 
of the program.
    We at OJJDP are honored to serve as ONDCP's partner in this 
historic effort, and I would like to thank the committee for 
giving me the opportunity today to discuss this critical aspect 
of the Drug-Free Communities Program and to answer any 
questions you might have. Thank you.
    [The prepared statement of Mr. Wilson follows:]
    [GRAPHIC] [TIFF OMITTED] 79781.013
    
    [GRAPHIC] [TIFF OMITTED] 79781.014
    
    [GRAPHIC] [TIFF OMITTED] 79781.015
    
    [GRAPHIC] [TIFF OMITTED] 79781.016
    
    [GRAPHIC] [TIFF OMITTED] 79781.017
    
    [GRAPHIC] [TIFF OMITTED] 79781.018
    
    [GRAPHIC] [TIFF OMITTED] 79781.019
    
    [GRAPHIC] [TIFF OMITTED] 79781.020
    
    [GRAPHIC] [TIFF OMITTED] 79781.021
    
    [GRAPHIC] [TIFF OMITTED] 79781.022
    
    Mr. Souder. Thank you. And I have a number of questions, 
and let me say at the outset--we'll probably do a couple of 
rounds that--once again, don't take any of my questions about 
overhead as critical of the employees who are doing this, 
because we always yell about overhead and costs, and then the 
next thing--I know when we first did this in northeast Indiana, 
one of the first things--Noble County got a grant. So 
immediately we're asking Noble County to come down and talk to 
the other counties, which would be basically called 
``mentoring.'' The next thing you know, we're hollering at the 
government wanting somebody to come in and give some 
guidelines.
    So I do it just like everybody else does it, but the plain 
truth of the matter is, we have a fiduciary responsibility here 
to make sure that we are staying tight with this, because the 
truth is that if 100 groups, in effect, have it transferred 
into one form or another of administrative overhead and then 
don't get a grant, that means some communities in my district 
and Congressman Cummings' and elsewhere are not going to get a 
grant because we decided to move that money over.
    It is also a natural tendency of a bureaucracy and your 
advisory groups to say, yes, now that they have the knowledge, 
they would like to be mentors. Now that they are included, they 
would like to continue their grants. It is a natural 
bureaucratic thing that occurs in everything, and there's merit 
to it, but it's a tough tradeoff.
    My first question is on the 8 percent, which I understand 
is a cap, not a guarantee. There was--we were given an estimate 
that went to the Senate Appropriations Committee from ONDCP, 
that 1.5. Is that estimate still pretty valid as far as what--
you haven't changed any of those numbers, the 4.5 for OJJDP, 
1.5 for independent evaluation, 1.5 for technical--that the 
independent evaluation percentage then would be going up as the 
grants go up?
    Why would you need the dollars to go up for independent 
evaluation that amount? I guess the total budget is doubling.
    Dr. Vereen. A general way to respond to that question is 
the character of the coalitions is changing. As was presented 
earlier, the first to line up to apply for these moneys and the 
folks who were the most successful were the mature coalitions. 
There were already coalitions out there.
    What has happened over time is that there are only a finite 
number of those. The work it takes--and I made this point in my 
oral statement. The work it takes to pull together parts of a 
community that normally don't necessarily talk to each other--
--
    Mr. Souder. But is that the independent evaluation? In 
other words, there is 1.5 percent in the budget, an independent 
evaluation by Caliber Associates. Is that--that, in effect, 
goes from an amount of $40 million to a substantially different 
amount. And the independent evaluation is not how difficult is 
the setup; it is to evaluate.
    And then also in the--my understanding from Mr. Wilson's 
testimony is that part of the goal of the independent Institute 
is to provide on-hand--you know, this is what we learned, here 
is the evaluation of how we did it. And I'm trying to figure 
out why so much money--I am not against evaluation, but I don't 
want to see a duplication--and also why it needs to go up 
proportionately.
    Dr. Vereen. Yes. When you talk about evaluation, there is 
evaluation at many different levels.
    There must be evaluation to make sure that there is 
compliance with government performance, related to government 
performance.
    There is evaluation on how the coalition itself is 
functioning. They have to be able to generate a baseline of 
drug use in their community. They have to demonstrate that they 
are actually making progress on that. That is different in 
every community. These communities are--most--almost all of 
them are not set up to do that. That takes a lot of technical 
assistance to get up and going, and then we must evaluate that 
to make sure that the information we are getting from them is 
true.
    Mr. Souder. And how do you view that technical assistance 
as different from the mentoring technical assistance and the 
independent Institute's technical assistance?
    Dr. Vereen. OK. The Institute is a way of focusing research 
that specifically is relevant to the coalitions. Knight has 
done a lot of research. Other groups have done research, but 
often it isn't focused enough specifically for the communities.
    Representative Cummings talked about the experts. Yeah, 
they do this work out there, but it has to be able to be 
applied. The example that I gave earlier was our National 
Institutes of Health. They churn out great research and great 
research findings, but it is a huge challenge to apply that. 
One of the reasons I work at ONDCP as a doctor, as a 
researcher, is to do that. It is a very difficult job, and 
sometimes it is expensive.
    Mr. Souder. Now, I am not against the research and I am not 
against applied research, but I have also watched how women's 
infant care, Food Stamps, and a lot of the Head Start, all of a 
sudden all say their primary mission is nutrition, and in fact 
they start to drift from their--nutrition education I should 
say. And all of a sudden rather than having one--somebody 
focused on nutrition education and the others focused on 
delivery of services that they were originally targeted to do, 
it becomes almost a bureaucratic overhead where you have people 
employed doing the same thing for the same mothers, when the 
dollars could have actually been helping them. And that is what 
I am trying to sort.
    I understand the difference in evaluation directly of the 
grant, and I understand the difference of mentoring, of how to 
be more effective and using the information that comes from the 
research to apply it. I don't see quite yet the difference 
between the mentoring that's applying it and the institute 
that's applying it, and I don't quite see the difference in the 
technical assistance you're applying and the technical 
assistance that's coming from the mentoring and the institute.
    Dr. Vereen. Let me offer this in addition. These--some of 
the research that helps us to guide community coalitions comes 
from a longstanding set of studies that looked at successful 
communities. What we culled from looking at all of these 
successful communities were a series of principles, and we're 
trying to apply those principles, those research-based 
principles.
    Mr. Souder. That's in the Institute's----
    Dr. Vereen. Yes.
    Mr. Souder [continuing]. Guidelines that they're going to 
do that, not this.
    Dr. Vereen. No. But these newer coalitions, first of all--
--
    Mr. Souder. That's the Institute--I mean, the statement we 
have from the Institute has exactly the same purpose you just 
described.
    Dr. Vereen. What the coalitions actually do themselves, 
they have to use resources to actually do that, to actually 
implement that. When a suburban coalition, for example, reaches 
out to an urban--a neighboring urban coalition or a neighboring 
rural coalition, they actually have to generate up a team to 
actually carry that out.
    Mr. Souder. In the mentoring?
    Dr. Vereen. In the mentoring, yes.
    Mr. Souder. That's the third one.
    Dr. Vereen. And I am trying to make the distinction that 
these things--they flow together. The real challenge here is 
coordinating. I understand--we understand what you're trying to 
say in terms of separating this out and making sure that there 
isn't a duplication; but the real challenge is coordinating all 
of these pieces, and at the same time being able to be 
accountable. We have to come back to report to you every year 
on how successful we've been in being able to apply that 
knowledge.
    Mr. Souder. Even in between?
    Dr. Vereen. Yes, and even in between.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. I don't know about anybody else, but I'm 
confused. But let me try get unconfused here.
    You have the--and my confusion is coming with regard to 
the--why the increase. I'm not knocking the increase, I'm sure 
it's justified, but I'm just trying to figure out how we get 
from 3 to 8. Am I right, 3 to 8?
    In the process of applying--and I have been trying to make 
up, make my own little lists of why I would think it would go 
up. In the process of applying, first of all, you're getting 
more applications. Is that calling for more people?
    I'm starting at the beginning process now. Does that call 
for more man-hours, woman-hours?
    Dr. Vereen. I'll say, not necessarily. I'm trying to make 
the point that the work in generating the coalitions, that's 
taking more work.
    Mr. Cummings. OK. Well, let me just--I want to come to the 
process, because this is--in other words, I'm starting at the 
application process.
    Dr. Vereen. OK.
    Mr. Cummings. So people send in these applications--did you 
want to say something? I'm sorry.
    People send in the applications. Are you saying that 
although there are more applications, it does not necessarily 
take a lot more person-power----
    Dr. Vereen. If they were all----
    Mr. Cummings [continuing]. To evaluate them?
    Dr. Vereen. If they were all the same, then it would be 
easier to manage, but certainly at some point you would reach a 
threshold where you would need more personnel. And John can----
    Mr. Wilson. Yeah. Our administrative budget is made up of 
the grant managers and support staff and financial staff, but 
it also includes the cost of processing the application as part 
of the competition.
    We use a peer review process and, naturally, if you are 
reviewing more applications, it is going to cost more money to 
implement that peer review process. And, of course, as the 
number of actually funded coalitions grows, if you keep the 
numbers of grants assigned to each program manager at a 
reasonable level, you're going to be spending more money to 
support more program managers; and you're also going to need 
more money to support travel, to go out and visit coalitions 
which is part of the monitoring responsibility.
    So, yes, the more applications, the more costs in 
processing; and the more projects that are funded, the greater 
the costs to administer the programs, of course.
    Mr. Cummings. Now, during that evaluation process, do you--
I mean, is there--in other words, if you've got a--some little 
groups from, say, from my district, and their applications are 
not--say, like, they're not as sophisticated as people who have 
been doing this for 50 years, is there something, Doctor, that 
you do? I'm not asking you to do it. I'm just trying to make 
sure that I am clear on this cost thing.
    Is there something that you do to, say, you know, maybe you 
didn't do something right here and just--I mean, is that a part 
of the process?
    Dr. Vereen. Yeah. We call it technical assistance.
    Mr. Cummings. OK. So then you've got this technical 
assistance piece. So that's more, because your pool of 
applicants is becoming broader?
    Dr. Vereen. That's correct.
    Mr. Cummings. So then you've got a little increase there, 
too?
    Dr. Vereen. And we want that to happen. We want to go into 
those kinds of communities.
    Mr. Cummings. OK--yes?
    Mr. Wilson. A couple things: First of all, in response to 
your earlier question, 20 percent of the scoring of an 
application depends upon demonstrating the need for the program 
in the community. So the extent to which a community has a 
serious drug problem, for example, certainly is something that 
is taken into account by the experts who are rating these 
applications.
    I think that the peer reviewers are sophisticated enough 
that they can see through a glossy, well-packaged application 
and see the substance of what the community coalition stands 
for and what it has accomplished and what its goals and 
objectives are.
    So I don't think that really in my experience--and I've 
been with this program for 27 years, with the juvenile justice 
program--that applications get funded simply because they know 
how to write applications better than other people. There is a 
certain amount of that, and it is a skill. We do debrief 
applicants. We tell them what the major deficiencies were in 
their proposal, and we encourage applicants who are 
unsuccessful to come back the next time, address those 
deficiencies and reapply for funding.
    Dr. Vereen. And provide the technical assistance for them 
to reapply.
    Mr. Cummings. OK. All right. That is where I got confused, 
for them to reapply. OK.
    Dr. Vereen. That's correct.
    Mr. Cummings. So I guess that's increased a bit, too. The 
more applications you have--I guess it's the more rejects you 
have, the more advice you give for future reference?
    Mr. Wilson. Correct.
    Mr. Cummings. All right.
    Now, then after that, you have some awardees, and you 
monitor their situation, and because you're going to have more 
awardees and a lot more work, that is the big piece. Is that 
it?
    Mr. Wilson. Right.
    Mr. Cummings. That is where most of your top overhead comes 
in?
    Mr. Wilson. That's correct.
    Mr. Cummings. OK.
    Mr. Wilson. Yes. And, you know, overseeing grants is not a 
clerical function. The program managers at OJJDP are high-level 
Federal employees. They're GS-12s and 13s who have a great deal 
of background information, know the drug prevention field, know 
how this program operates and are able to give really solid 
advice to the coalitions. They work with them very closely, 
steering them to resources.
    And I think one of the things that our program managers 
will do under the reauthorization legislation, and the 
challenge for all of us, will be to coordinate the delivery of 
services and resources. So if someone has a need that they've 
identified in their coalition, we need to know what the 
resource is out there to steer them to, whether it is a 
mentoring coalition, whether it is the Institute, because they 
need some help with evaluating their program, or whatever the 
resource is, it's the job of our program manager to be able to 
steer that grantee to the right resource that meets their needs 
in the most cost-effective way.
    Mr. Cummings. Thank you.
    Mr. Souder. Well, we are going to run into a problem here. 
We have 10 minutes left in the vote; there are three votes. We 
have to be out of the room at 1:30 and I want to make sure the 
next panel gets in. So if I can ask you a couple of quick 
questions here. Then when we come back, then Congressman 
Cummings has a few more. Then we'll ask you some written 
questions, and we'll continue to work with you as we work on 
the bill.
    But I wanted to clarify a couple of things, and it's 
important we have this in the record, too, that this question 
of currently operating, Mr. Wilson, at 44 grants approximately 
per case--per program manager; and you've proposed, I think it 
is 25--could you explain maybe how you've arrived at that and 
how is this program like other programs?
    In other words, that is apparently a pretty standard thing 
in the department. Is there anything that makes this program 
easier or harder? And supposedly we've made it at 35. How hard 
has this become inside the department?
    Mr. Wilson. Well, 26 is the average for individuals who 
monitor discretionary grants in the overall Office of Justice 
programs which--we're talking there about a $3.7 billion 
program that's primarily grants, so it's a pretty broad 
average. I think that 26 would be the standard that we would 
work toward. I have no reason to believe that we'll ever get 
there. If we can come close to it, then, again, I--as I 
mentioned, I believe that the grantees under this program will 
be better served.
    I think, yes, that there are some economies of scale in 
terms of people's increased expertise over time, over the fact 
that the programs have a lot of similarities, and I think that 
helps. But, again, that is the standard that we'll probably 
never meet. But as close as we can come to 26, I think the 
program will benefit from that.
    Mr. Souder. Do you believe the Institute would take some of 
the pressures off in technical assistance?
    Mr. Wilson. Yeah. The way I look at the Institute in the 
legislation, that--the answer to your question is yes, to a 
certain extent. The Institute will be able to provide the 
research, the best practices, some hands-on assistance to 
coalitions, and how to better evaluate the success of their 
program. And these are needs that exist right now in the 
program.
    To the extent to which we as program managers provide 
technical assistance it's really technical assistance on the 
nuts and bolts of Federal grant management and the effective 
expenditure of funds, which I don't think would be duplicative 
of what the Institute would be doing.
    Mr. Souder. So you don't see the mentoring group or the 
Institute as giving technical advice on how to do grants or 
apply for grants or filling out the grants?
    Mr. Wilson. I think the Institute would be a partner with 
us in getting that kind of information out to coalitions all 
around the country, yes. But I don't think it would be 
duplicative. It would be a collaborative venture.
    Mr. Souder. The--how do you see the--in other words, let's 
say--we are all sensitive here in Congress because we are 
adding new parts to our districts, so our districts are 
changing; so all of a sudden I have 200,000 people in my 
district who I haven't represented before, and they don't have 
any coalitions. For instance, Elkhart, Warsaw, and so on. Now, 
say they're interested in it. Are they going to be approached 
by--because Dr. Vereen said one of the things that costs money 
is you go out and do advance in talking to coalitions. They're 
going to get technical assistance from OJJDP. The CADCA and 
other groups are likely to be promoting it. The mentoring 
groups would come in and talk to them. And the Institute partly 
has this as a goal. Is that not correct? And so am I going to 
be more confused or less confused if I am in Elkhart?
    Mr. Wilson. I don't think you will be more confused. We 
coordinate now with ONDCP, with CADCA, in the delivery of 
information to coalitions around the country or communities 
that are interested in forming coalitions about how to do that 
and how to successfully apply for funding under this program. 
So, again, right now it's a collaborative effort, and with the 
addition of an Institute, they would become part of that 
collaboration and getting that information out into communities 
around the country. OK. Thank you. I'm going to run over to 
vote. I apologize. But this is what we're actually elected to 
do. With that the subcommittee stands in recess.
    [Recess.]
    Mr. Cummings [presiding]. You know, in the elevator up I 
was just asking the chairman, you know, I said, what can we do 
to give them some incentive for keeping the costs down, and I 
won't tell you what his answer was. But I'm just wondering, I 
mean, I guess when you see the movement from 3 to 8, that is 
substantial. And one of you said, and emphasized, that this was 
a cap, and I understand that. And I remember Mr. Portman saying 
that we were very conservative before when we established the 3 
percent.
    And I was just wondering, do you feel like you've been 
pretty effective with the 3 percent? Or you think it's a--you 
just haven't--in other words, I'm going back to what Mr. 
Portman said, and I know we are now talking about expanding and 
the program getting bigger, but I'm just saying, do you feel 
like you did a pretty good job with the 3 percent, Mr. Wilson?
    Mr. Wilson. OK. If I can answer that, the 3 percent cap, or 
basically keeping it at $1.2 million, it hasn't actually been 
reduced to 3 percent, because both NADP funds and other OJJDP 
funds have been used to support the program; so that, for 
example, in 2001 we're spending really about 6.5 percent, 
including funds that have been made available to the program 
from other fund sources. ONDCP admin money, our drug prevention 
fund money supports the capped training and technical 
assistance piece of the program.
    Mr. Cummings. Is that all of what would now be considered 
as a part of the overhead, the 8 percent? Are you following me?
    Mr. Wilson. Yes. And, yes, it would. So the difference 
between what we effectively are spending which is about 6.5 
percent this year, that 1\1/2\ percent would be kind of the 
amount of money that we would need to get up to full staffing 
levels on the program management side. So that's where we're 
suffering right now. I think it's because we're still funding 
the evaluation. We're still doing the peer review, and 
providing support for the evaluation and the training and 
technical assistance from the caps from other fund sources. So 
the 8 percent really would allow us to bring the program 
management up to--not to the level of 26 grants, but certainly 
at a more manageable level. So that's what we--it's not really 
going from 3 percent to 8 percent in reality, because in fact 
we're putting in other resources to bring it well up, much 
closer to the 8 percent level now.
    Mr. Cummings. So you're still working--now, let me make 
sure I understand how the budget stuff works. So you're obeying 
the law and staying under the 3 percent, right? Just hang with 
me. But then you're tacking on this other 3.5 that's coming 
from other places. So technically you're still within the 3 
percent.
    Mr. Wilson. Correct.
    Mr. Cummings. Now, that's where I want to get to. So that 
other 3.5 percent is money that probably should be used for 
something else. Is that reasonable?
    Mr. Wilson. Yes.
    Mr. Cummings. And so something is going lacking.
    Mr. Wilson. Yes.
    Mr. Cummings. Some things. So you'll be able to then spend 
that 3.5 percent for things that it's supposed to be spent for, 
and then we'll come up to the 8 percent.
    Mr. Wilson. Correct.
    Mr. Cummings. OK, let me ask you this. Can you tell me 
exactly how this Institute is--just give me just a thumbnail, 
simple, step-by-step, how the Institute will work from a 
logistical standpoint. I mean, if I was just some layperson 
calling into the office 6 months from now and I said, ``Well, 
how does that Institute work? I heard you got an Institute, how 
does it work, how can that help my community,'' what would you 
say?
    Dr. Vereen. There are two basic areas. The first is best 
practices. How do coalitions actually work? What are the 
ingredients of a coalition? I want to form a coalition; what 
are the active ingredients?
    And the other thing the Institute has to be able to do is 
to teach the coalition, to provide the information to the 
coalition on how to evaluate and assess the coalition. They 
have to be able to assess themselves. That's a requirement for 
the grant. So those are two--they're all based on research. 
They're very technical. And General Dean will explain this as 
well.
    Mr. Cummings. Well somebody's not gotten a grant, and they 
call in and they just heard that you got a--it's a community 
association, it's a group, a coalition. They have not--they may 
have applied, say, for example, because I think this is going 
to happen. Hang with me now. They may have applied. You may 
have given them some wonderful advice about how to do it the 
next time. They say, look, Doctor, we love all that. You know, 
thank you for your advice. But we've got people dying in our 
streets right now, and I've got a group of people who really 
want to do something and want to do it now.
    How does this Institute that you've established help me, if 
at all?
    Dr. Vereen. It's a repository of information. And I want to 
make one important point here. When a coalition applies, they 
actually have to demonstrate that they've been in existence and 
can function for 6 months before they're eligible. OK. In order 
to get to that point, they need mentoring, which comes best 
from another coalition, somebody who's been there to get them 
to the point for them to apply.
    Then in order for them to interface with the government, 
there's the application process, the reporting requirements, 
all those things that we try to minimize. That's what OJJDP 
does. But the information which we're still gathering on what 
are the active ingredients of a coalition, what makes them 
work--and we want to require those of every new coalition that 
comes along--lives in the Institute; and we're still generating 
some of that information that gets fed back directly into the 
coalitions that are now coming on line.
    Mr. Cummings. Maybe you missed my question. And let me 
just--I've just got to ask it one more time and thank you for 
what you did say.
    Dr. Vereen. OK.
    Mr. Cummings. I'm saying if there's--and maybe you did 
answer it. If there's an organization which doesn't make it, I 
mean and they just need some help.
    Dr. Vereen. We tell them how and why they didn't make it. 
OJJDP will do that.
    Mr. Cummings. Got that. But they've got a coalition. 
They're saying well, we didn't get the money. But you talk 
about best practices. Is there something that we can do? Do you 
have something? You're the Federal Government. Can you help us, 
through your Institute, can you help us.
    Mr. Wilson. Yes. That would be----
    Mr. Cummings. Because I'm telling you that's going to 
happen.
    Mr. Wilson. We would have the capacity to do that through 
this Institute that we don't have now.
    Mr. Cummings. OK. That's why I'm asking. So in other words, 
you could tell them some things that they could possibly do, 
maybe send them some brochures or something. Let me tell you 
why I'm asking that. Because that's what I'm doing in my 
district right now, trying to find out what other groups have 
done. And I'm trying to pull together a book to hand to my 
community associations because most of my associations will 
never, probably, not unless--not in the next 10 or 15 years, 
get into, you know, it's just too much competition.
    I mean some of them will, but some of them won't. So I'm 
putting together a little book. It talks about Federal grants. 
It's going to talk about best practices basically from 
community association to community association; and then, 
hopefully, they'll be able to look at that and say, well here's 
an idea. We can have people like a community on patrol kind of 
thing and I'll be able to refer them to the Mt. Vernon 
community that did it.
    So all I'm asking you, again I'm trying to stretch these 
dollars and help people be self-sufficient; and I just wanted 
to know how that would work, had you given it any consideration 
because you've got a lot of people who are desperate for help. 
And I'm just saying if you already have the kind of tools there 
to help people who have qualified for grants, maybe some of 
that same information would be helpful to people who may not 
have--not that they didn't qualify, maybe they just didn't make 
it because you've got so much competition. And I would hate to 
lose their vigor and their excitement, you know, particularly 
if there's something that we've got available. OK? Thank you.
    Mr. Souder. I want to thank you for your testimony, and 
we'll continue to work with you on the numbers as we move to 
the markup in a rapid fashion after break. Part of the problem 
here, coming from a business background is that we're barely 
covering the variable costs and we're not doing the fixed and 
mixed which is why you're having to take some of the dollars 
from other parts.
    And one of the things that we need to work through is that, 
in fact, if we expand and cover a higher percentage of the cost 
rather than having you take it from the admin budget that 
you're given for your agency, that means that this program, in 
effect, gets a reduction of the funds going to the grass roots 
and doesn't get part of the admin budget. But that's a typical 
thing we do in Congress. We keep piling new programs in, don't 
increase the admin budget.
    The question is, why should just this program bear that. 
Shouldn't we be increasing then the admin budget in other 
programs rather than having it be just in this budget. That's 
really a more technical part of the question, because we 
obviously fund the admin budget. This isn't coming--in other 
words, the 3.5 that came out of juvenile justice isn't coming 
out of programs. It's predominantly coming out of the admin. 
And that's because we add new programs without increasing the 
administration of ODJJP; is that----
    Mr. Wilson. Well, let me clarify that very quickly. The 
money that's coming--some of it's coming from ONDCPs admin 
money for the evaluation out of the money that we put in 
directly into the program to support the work of the cap. The 
training and technical assistance work is program money. We 
don't consider training and technical assistance to the field 
to be an administrative expense. We consider it to be a 
programatic expense, and it's authorized by our training and 
technical assistance authorizing legislation.
    Mr. Souder. But you get other money to do that, and so this 
program would be eligible for that money.
    Mr. Wilson. Well, we can use it for training and technical 
assistance. This is coming out of our drug prevention money, 
which is programmatic money. Which includes training and 
technical assistance. We would, that money would be going out 
to communities to implement drug prevention programs, 
demonstration programs if it were not going to support the 
training and TA from the cap. So that would be--probably that 
would be where it would go. So it would still be going out to 
the communities.
    Mr. Souder. Thank you very much for coming today, and I 
appreciate you taking the time to be here. If the third panel 
could now come forward. And if you will remain standing I'll 
administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show all the witnesses have 
responded in the affirmative. We'd like you to limit it to 5 
minutes, insert anything you want, or if you have additional 
information to put into the record. General Dean, would you 
like to begin?

STATEMENTS OF ARTHUR T. DEAN, MAJOR GENERAL, US ARMY, RETIRED, 
 CHAIRMAN AND CEO, COMMUNITY ANTI-DRUG COALITIONS OF AMERICA; 
 HONORABLE MICHAEL KRAMER, JUDGE, NOBLE COUNTY SUPERIOR COURT, 
  INDIANA, CHAIR OF DRUG-FREE NOBLE COUNTY AND MEMBER OF THE 
 ADVISORY BOARD OF CADCA; AND LAWRENCE COUCH, PROGRAM MANAGER, 
            MONTGOMERY COUNTY PARTNERSHIP, MARYLAND

    General Dean. OK. Good afternoon, Mr. Chairman, Chairman 
Souder; Representative Cummings; and other distinguished 
subcommittee members. On behalf of Community Anti-Drug 
Coalitions of America [CADCA]----
    Mr. Souder. General, could I ask you to pull the mic just a 
little closer. I think it was on but----
    General Dean. Is that better? Nope. OK. Well, to 
basically--I hope you won't take that from my 5 minutes. But I 
will go as fast as I can.
    But good morning again, Mr. Chairman, Representative 
Cummings, and other distinguished members of this subcommittee. 
On behalf of the Community Anti-Drug Coalition of America, 
[CADCA], and our more than 5,000 community coalitions 
nationwide, I am grateful for the opportunity to share with you 
CADCA's unique perspective on H.R. 2291. I've also submitted 
written testimony and supporting data for the record.
    I will be very brief. CADCA is proud of its help that it 
has provided Congress to develop the original Drug-Free 
Communities legislation as well as the current legislation 
being considered in both the House and the Senate. We also have 
worked closely with our friends in ONDCP, OJJDP, CSAP, and the 
Presidential Drug Free Communities Advisory Commission on 
successful program implementation. The Drug Free Communities 
program has been a central bipartisan component of our Nation's 
demand reduction strategy.
    The premise of the Drug Free Communities program is very 
simple--and that's why we care so much about it--that 
communities must be organized and equipped to deal with 
individual substance abuse problems in a comprehensive and 
coordinated manner and that Federal anti-drug resources must be 
invested at the community level. This program is unique in that 
Federal support is contingent upon local efforts and results. 
The GAO 1997 report--and I have detailed the title of that 
report in my written statement--says that one of the most 
promising drug prevention strategies targeting young people is 
community anti-drug coalitions. I know firsthand from many 
visits around this country to organizations that belong to 
CADCA, many of them that are Drug-Free Communities grantees, 
that this program truly does make a real difference.
    Let me give you some quick examples, and I have given more 
for the written testimony. In Vallejo, CA, the Valejo Fighting 
Back Partnership reports that monthly marijuana use for seventh 
graders was reduced from 16 percent to 6 percent between 1996 
and 2000. They also saw alcohol use among ninth graders reduced 
by 17 percent between 1999 and 2000.
    Another example, Miami Florida coalition reports that the 
perception, and the perception is critical, of the availability 
of marijuana decreased from 43 percent in 1995 to 28 percent in 
1999.
    And my last example is the Lane County Prevention Coalition 
in Eugene, OR, reports that inhalant use within the last 30 
days among eighth graders dropped from 12.4 percent in 1996 to 
5.3 percent in 2000.
    I believe these impressive results have been achieved by 
community coalitions through the implementation of an array of 
programs and strategies. I would like, quickly, to address some 
of the provisions of H.R. 2291 and why CADCA is very pleased 
and particularly excited about them.
    First of all, we believe that the bill raising the 2002 
authorization from $43.5 million in current law to the $50.6 
million requested by President Bush is a good one; and we 
support that. We also support the levels authorized for fiscal 
years 2003 through 2007. We believe that this will add hundreds 
of community coalitions to this program. We also support the 
provision of H.R. 2291 that allows coalitions who have 
completed 5 years to continue, as Congressman Portman talked 
about, with them having the responsibility to have a higher 
match locally. We think that's important.
    There has been much discussion, Congressmen, about the 
administrative cap. What I say from a grassroots perspective, 
having visited many of the grantees is that--and talked to the 
members of the drug free commission, talked to our friends over 
in ONDCP and OJJDP--that there clearly is a need to raise the 
cap so the program can be more effectively managed and 
evaluated; and we think that 8 percent is the appropriate 
level.
    CADCA is particularly excited about--that H.R. 2291 
includes the authorization for, and I will be more than willing 
to answer more questions about the National Community Anti-Drug 
Coalition Institute. The coalition field urgently needs this 
Institute to provide the most effective and efficient vehicle 
for developing and disseminating relevant and easily 
understandable information. The field needs materials 
specifically designed to address the unique sustainability 
outcome measurement and other challenges facing community 
coalitions, like integrating the faith community into their 
operations, like integrating the business community.
    The Institute will provide the education, training, 
technical assistance, and performance measurements and other 
state-of-the-art information needed to cause these coalitions 
to be effective. The Institute will be a wholesaler. It will 
assist in communities building coalitions, sustaining 
coalitions, and evaluating coalitions. The new supplemental 
authorized under H.R. 2291 enabling mature coalitions, we 
believe, also is important in that the Institute and the 
supplementary mentoring grants are intended to complement each 
other and not to be duplicates of each other.
    The Institute will develop and provide the field with the 
latest and best information and materials needed to implement 
evidence-based strategies and to measure, assess, and to 
document their performance. Mentor coalitions will use the 
information, will be trained by the Institute, and will assist 
in the mentoring of other coalitions in their communities.
    H.R. 2291 authorizes $2 million in Federal funding for the 
Institute in 2002 and 2003 and a sum to be determined from 2004 
through 2007. The Drug-Free Communities program is truly the 
backbone of successful local anti-drug efforts, and I am 
delighted that the proposed legislation will reauthorize and 
strengthen the program. I thank you for the opportunity to 
testify before you today, and we appreciate your support and 
leadership.
    [The prepared statement of General Dean follows:]
    [GRAPHIC] [TIFF OMITTED] 79781.023
    
    [GRAPHIC] [TIFF OMITTED] 79781.024
    
    [GRAPHIC] [TIFF OMITTED] 79781.025
    
    [GRAPHIC] [TIFF OMITTED] 79781.026
    
    Mr. Souder. Thank you. I'd now like to have a statement 
from Judge Kramer, my friend; and it was great of you to 
sacrifice a little bit of time from wonderful, beautiful 
Indiana and come out here to Washington.
    Judge Kramer. Thank you. It's an honor to be here. Chairman 
Souder, Ranking Member Cummings, I hope I can make some 
contribution toward the passage of this legislation because, as 
has been mentioned before, I do believe that this is one of the 
keys to reducing drug use among youth.
    I am a trial court judge in the Noble Superior Court in 
Indiana. Eleven years ago, in response to seeing the large 
number of both civil and criminal cases that are rooted in the 
use and abuse of alcohol and other drugs and dealing with the 
resulting devastation of people's lives, I became involved with 
Drug-Free Noble County, our countywide anti-drug coalition. For 
the last 7 years, I've served as the chair of Drug-Free Noble 
County.
    I do want to thank you for enacting the original act. I 
wrote the successful grant request for our county in 1998 in 
the first round. The grant has raised our efforts to new 
levels. While we were doing good things before, we've been able 
to provide services in areas of need. We've hired a staff 
person to organize our volunteers and, over the last 2 years, 
have over doubled the number of people who volunteer with our 
coalition.
    It's changed attitudes and energized people in our county 
in ways that I really can't describe. And it's changed 
attitudes and made drug prevention and youth development really 
a priority for the county. One program is our youth program, 
which is Noble County PRIDE, affiliated with national PRIDE 
Youth Programs. I'd like--I could sit here all morning and talk 
about the things that they've done. They're known locally as 
miracle workers for all the work that they do. Their emphasis 
is on community service and working in the community to make it 
better while serving as models for a drug-free lifestyle.
    One thing that I'm particularly gratified by, we have a lot 
of top students and top athletes, but a lot of those kids don't 
have time to be involved. And although we have some right now 
grades 5 through 12, about 40 percent of the student body are 
active participating members in PRIDE. And a great number of 
those are kids that would otherwise have very little connection 
with the school and are not otherwise involved in things after 
school or other activities.
    And I think this has played a very big role in their lives. 
And through the grant, we've been able to expand that so we've 
gotten up to the 40 percent that we're at right now.
    I do support the ability of current grantees to continue to 
receive funding beyond the 5th year. I do not want to see 
grantees become so dependent upon Federal funds that when that 
support is taken away, they fail. On the other hand, it's 
important to realize that we're working with problems that have 
been around for 40 years, actually a lot longer than that, and 
quick fixes are not going to work.
    Programs have to be given time to take root in the 
community and become a part of the fabric of the community. We 
need to have a consistent, devoted, research-based effort over 
a long period of time to make changes in our community. And I 
see this part as getting that process started.
    We have limited funds. We're a small rural community in our 
county; and before receiving the grant, we'd done a pretty good 
job at tapping into those resources.
    Our original plan to replace the funding was unsuccessful. 
And late last year, we had to switch to plan B and without 
continued support after the 5th year, I guess my fear is that 
we're going to have to cut back on some of our effort and even 
with the 50 percent cut in the 5th year, we may not be able to 
continue with full services, even in the 5th year of the 
program. I believe that to be able to allow current grantees to 
reapply, but with an increased dollar match will help balance 
the needs in the communities with the desire to not make 
coalitions dependent upon the Federal funds. It will best 
insure that new programs and positive changes seen throughout 
the country will further develop and become ingrained in the 
communities and have the best chance of continuing with local 
support.
    One thing that really bothers me is seeing other 
communities that are not making full use of the opportunities 
and resources available to them to address the drug problem. I 
mean, things that we've done in Noble County can be done in 
every community across the country. A lot of these groups are 
just waiting for the spark to come. All of these people, as 
Representative Cummings had mentioned, are people who care very 
deeply for their communities and want to make a difference.
    What they lack is direction and training and expertise. 
They know what they want, but they don't know how to get there 
and don't know where to turn for help as I think you had put 
it. For these reasons, I'm excited about the National Community 
Anti-Drug Coalition Institute and mentor coalitions. I think 
they will help spread the influence and energy of community 
coalitions throughout the country and in every city and town 
and help create new coalitions and strengthen existing 
coalitions.
    Our coalition right now does mentoring in kind of a 
haphazard way. I got a call about a week and a half ago from a 
woman in LaGrange County whose son is in middle school and 
addicted to methamphetamine. And she wants to get involved in 
prevention activities with youth in LaGrange County, so other 
kids don't end up as her son. And she wanted to start a PRIDE 
group there. And so we're helping her.
    I think mentoring would provide a more organized program to 
allow these types of people who are struggling and don't know 
where to turn to have a place to turn to. The Institute will 
provide training and resources and the mentor coalitions will 
put those training and resources into practice. I think that 
this will help not only struggling groups and people who are 
first addressing a problem, but will help strengthen existing 
coalitions.
    And I do truly appreciate the dedicated people at OJJDP who 
have over seen our grant. They've done a very good job at 
keeping the grantees accountable and doing so in a helpful, 
flexible way by working with each coalition. Their work has 
shown me that they truly care about the success of each 
grantee. An institute, I feel, would work very well and not 
duplicate current efforts. I know that we had asked the people 
there some program-type questions; but, as I think had been 
expressed before, their main focus is in making sure that we 
comply with the Federal grant requirements, the code of Federal 
regulations, and other technical requirements as far as the 
grant.
    It would be nice to have the Institute to work along with 
that and when OJJDP got questions, to be able to refer them to 
the Institute about program questions, about evaluation. We 
have a mentoring program in a homeless shelter in our county, 
and I've tried everywhere trying to find ways that we can do a 
good evaluation of that program to see whether having the high 
school kids come in and mentor the homeless kids is helping.
    I mean, I feel, from anecdotal evidence that it is; but it 
would be very nice to be able to have some sort of evaluation 
system developed to evaluate that. And there's really no place 
that we can turn for that.
    Last, I also welcome anything that can be done to increase 
accountability. And this is not based upon any abuse by any 
grantee or OJJDP. I think that it's intolerable to waste 
precious funds that could be used to save the lives of 
children, help our communities, and reduce the destruction of 
human life.
    I welcome anything that insures the funds are used to the 
best and highest purpose. For that reason, I do feel that--and 
I don't know about the number, but I do feel that the 
administrative cap should be raised for OJJDP because they will 
insure that there are no abuses in communities. And I think the 
greatest threat to our program, to community coalitions, comes 
not from outside but from people who are careless or misguided 
within, who go off the track. And I would like to have--make 
sure there's proper oversight available to make sure that there 
are no abuses with these funds.
    Once again, I do thank you for your help in reducing 
illegal use of drugs by youth, and I appreciate the honor of 
being asked to testify here today.
    Mr. Souder. Thank you.
    [The prepared statement of Judge Kramer follows:]
    [GRAPHIC] [TIFF OMITTED] 79781.027
    
    [GRAPHIC] [TIFF OMITTED] 79781.028
    
    [GRAPHIC] [TIFF OMITTED] 79781.029
    
    [GRAPHIC] [TIFF OMITTED] 79781.030
    
    Mr. Souder. Mr. Couch.
    Mr. Couch. Thank you. Mr. Chairman Souder, Ranking Member 
Cummings, and members of the subcommittee, thank you for the 
opportunity to testify in support of H.R. 2291.
    I'm a father and, within the week, may become a 
grandfather. As a father, I've experienced the terrible tragedy 
drugs can cause in a family and partly for that reason became 
involved with the Montgomery County Community Partnership. The 
Partnership is a non-profit organization dedicated to fighting 
alcohol, tobacco, and drug abuse issues.
    About 18 months ago, we formed a collaborative arrangement 
with the Task Force on Mentoring an all-volunteer group, which 
has been in existence for about 10 years, focusing on mentoring 
at-risk children. We came in with a collaborative application 
to Drug-Free Communities, and were funded. Our relationship 
with the task force has been very useful.
    In my written testimony, I go into details about our 
successes and our accomplishments and the guide we developed 
with the various mentoring programs in the schools and our 
efforts to insure that a mentoring program be available in 
every middle school and every secondary school in Montgomery 
County. We're far from that, but we've made some progress.
    Recently, the school system hired a program-mentor 
coordinator, which was at least an acknowledgment by the school 
system that mentoring is important. And so we're moving in that 
direction. But during my brief testimony, I'd like to talk more 
about mentoring in the sense that mentoring is being used 
during this conversation.
    In one sense, the relationship between Montgomery County 
Community Partnership and the Task Force on Mentoring has been 
a mentoring relationship. The Task force had been, for 10 
years, an all-volunteer effort. They had a conference Once a 
year which was useful. But I really believe when they became 
associated with the Partnership, not only because of the 
additional resources made available, which we're greatly 
appreciative of; but I think also just because the Partnership 
had a lot of experience in working with coalitions, looking at 
institutions, looking at community norms, and looking at how 
the environment affects drug use and looking at the broader 
picture, that we helped the Task Force on Mentoring to focus 
better, to strategize better, and to see more of its own 
options. We're talking about mentoring as a way of empowerment.
    Mentoring of at-risk children is empowering the children on 
an individual basis. But we can also empower organizations, and 
I think we've been instrumental in empowering the Task Force on 
Mentoring. The Montgomery County Community Partnership has also 
worked with students and formed the Students Opposed to 
Smoking. And again, you know, students can discover how much 
power they have. We know they have power. But students often do 
not realize how powerful they can be, what type of access they 
can have to the media, what type of institutional change they 
can realize and can affect.
    We have also worked with communities outside of Montgomery 
County and, in terms of working with the coalitions, helping 
them to get formed and get started. Someone once said, an 
expert is a person who lives 50 miles away. Maybe there's some 
truth to that even. Sometimes a person from the outside can get 
a different perspective of what the problem is and what the 
potentials are and can take--I know as a member of the 
community, you can get so wrapped up in individual issues that 
sometimes you can miss the bigger picture.
    Congressman Levin said that replication is not duplication. 
I really like that. The idea of going into another community 
and working with them would certainly not be to impose my 
vision or our vision onto somebody else but really working with 
that coalition to help them to know what is their vision, what 
is their voice, and how they would want to proceed. I believe 
that the experiences that we've had as a coalition is 
transferrable and is really something that shouldn't be wasted. 
Any coalition that has been in existence and has been 
successful should get the opportunity to go out to other 
communities and work with them. Thank you.
    [The prepared statement of Mr. Couch follows:]
    [GRAPHIC] [TIFF OMITTED] 79781.031
    
    [GRAPHIC] [TIFF OMITTED] 79781.032
    
    [GRAPHIC] [TIFF OMITTED] 79781.033
    
    Mr. Souder. Thank you. We have a little--15 minutes. First 
let me--General Dean, if you could do this, that CADCA has 
various research studies and other examples of some of the 
programs you said for example that were in the audience today. 
If you could submit some of that for the record, because our 
focus on the record has been to some degree on budget issues. 
But this will be the only hearing on the whole act, and we want 
to make sure that this record reflects what we all share, which 
is that the community organizations have been very effective, 
that we've seen good responses around the country.
    Really the only thing we're going back and forth on the 
administrative costs is the administrative costs takes money 
from the community groups. It's a zero sum gain. And therefore 
we're not arguing with that, that there shouldn't be an 
increase in funds and more money going to the communities 
because we're just all presuming here today that it's been 
fairly effective.
    Maybe a little more targeting here and there and how do we 
go to the next level. Did we--in effect the allusion was made 
that those that were already organized were easier to supervise 
because they were already in existence to some degree, like 
Noble County, IN, or the mentoring programs in Montgomery 
County and, therefore, it's becoming harder so, therefore, it 
takes more administratively. Those are the kinds of questions 
that we're going through. But we want to make sure that the 
record from today shows the successes from as many programs as 
possible. And if you could work with the association with that.
    Now, let me ask you the difficult question. Authorizing 
funds are going up. But appropriating funds may or may not go 
up. So would you favor the administrative costs going up if the 
dollars are the same, which means an actual net reduction going 
to the grassroots?
    General Dean. Me.
    Mr. Souder. All of you briefly.
    General Dean. I would answer the question this way. And I 
would quickly say to you that we did submit to you about a 
three page summary of outcomes from current Drug-Free Community 
recipients.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 79781.034
    
    [GRAPHIC] [TIFF OMITTED] 79781.035
    
    [GRAPHIC] [TIFF OMITTED] 79781.036
    
    General Dean. We also shared with you that we get dollars 
from the Annie Casey Foundation in Baltimore to do a research 
study, and we left that for you as well.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 79781.037
    
    [GRAPHIC] [TIFF OMITTED] 79781.038
    
    [GRAPHIC] [TIFF OMITTED] 79781.039
    
    [GRAPHIC] [TIFF OMITTED] 79781.040
    
    [GRAPHIC] [TIFF OMITTED] 79781.041
    
    [GRAPHIC] [TIFF OMITTED] 79781.042
    
    [GRAPHIC] [TIFF OMITTED] 79781.043
    
    [GRAPHIC] [TIFF OMITTED] 79781.044
    
    [GRAPHIC] [TIFF OMITTED] 79781.045
    
    [GRAPHIC] [TIFF OMITTED] 79781.046
    
    [GRAPHIC] [TIFF OMITTED] 79781.047
    
    [GRAPHIC] [TIFF OMITTED] 79781.048
    
    [GRAPHIC] [TIFF OMITTED] 79781.049
    
    [GRAPHIC] [TIFF OMITTED] 79781.050
    
    [GRAPHIC] [TIFF OMITTED] 79781.051
    
    [GRAPHIC] [TIFF OMITTED] 79781.052
    
    [GRAPHIC] [TIFF OMITTED] 79781.053
    
    [GRAPHIC] [TIFF OMITTED] 79781.054
    
    [GRAPHIC] [TIFF OMITTED] 79781.055
    
    [GRAPHIC] [TIFF OMITTED] 79781.056
    
    [GRAPHIC] [TIFF OMITTED] 79781.057
    
    [GRAPHIC] [TIFF OMITTED] 79781.058
    
    [GRAPHIC] [TIFF OMITTED] 79781.059
    
    [GRAPHIC] [TIFF OMITTED] 79781.060
    
    [GRAPHIC] [TIFF OMITTED] 79781.061
    
    [GRAPHIC] [TIFF OMITTED] 79781.062
    
    [GRAPHIC] [TIFF OMITTED] 79781.063
    
    [GRAPHIC] [TIFF OMITTED] 79781.064
    
    General Dean. I would answer the question this way: that 
after traveling around this country and having looked at the 
conditions of our communities and visiting hundreds of 
coalitions, that I believe I would favor less recipients in 
order to provide the current recipients better support and 
services and make them stronger and better.
    That's a very difficult question--that's not easy for me to 
say because I want to have as many grantees as possible, but I 
don't want to have so many grantees out there and them 
floundering without the appropriate assistance that is so 
critically needed for them to be successful, so I have to come 
down on the side that I would favor less grantees in order to 
better provide support and assistance and evaluation.
    Mr. Souder. Judge Kramer, if I could ask you, you mentioned 
LaGrange County. I know DeKalb is also interested in effect. 
I'm sure we're trying to move the prevention funds up, and I 
think it'll go up some. But, for example, this could make the 
difference whether one or neither of those counties get any 
money if we increase the overhead. Or it could make a 
difference in whether you get your additional years.
    Judge Kramer. Right. It's important to have the money in 
the communities; but it's also important to have the proper 
oversight. And I guess it concerns me that there are other 
prevention programs, demonstration projects in the OJJDP, that 
are not being funded to help provide the administrative costs 
for----
    Mr. Souder. That's not what he said. He said that it's not 
programmatic. It's administrative.
    Judge Kramer. OK.
    Mr. Souder. It's not pure administrative, but it's 
technical assistance. In other words, we--in Congress, we give 
technical assistance to OJJ--this is a very important thing to 
do because there was a little misunderstanding. But the admin 
funds come from Congress to administer. We also give technical 
assistance funds. Those technical assistance funds are to cover 
all their programs. There's no reason some of their funds 
shouldn't cover this program. Because if they can cover other 
programs----
    Judge Kramer. I guess, I think that the money that's used 
should be used the best, and I think that there still does need 
to be some increase in the administrative costs of the program 
to insure that each grantee builds the best program possible.
    And I guess my goal, my vision would be to have that map 
covered with dots with grantees from the past. And I guess that 
means that the map would be covered a little bit more slowly, 
but hopefully, with a lot stronger coalitions by having the 
proper oversight over them.
    Mr. Souder. This is a tough question. And I appreciate 
that's what we're having to go through, and you're, in effect, 
saying that this is a great need which is what we need to hear. 
Mr. Couch.
    Mr. Couch. We've received excellent assistance from OJJDP. 
I understand our program manager at one time was working with 
100 grantees. I mean that's not realistic, especially for 
grantees that need a lot of assistance. I think creating weak 
coalitions doesn't really help anybody and can really hurt the 
effort.
    Mr. Souder. Thank you. And also, Washington, DC, may be the 
only place where we don't view experts being 50 miles away.
    Mr. Cummings. I want to thank you all for being with us 
today. And yes, judge.
    Judge Kramer. There was one point that I wanted to make, 
and I forgot because I was trying to--I kept watching the 
clock. One concern that I have in the mentor coalition is the 
requirement of requiring a match. And I understand the reason 
for that. But it's difficult for us to raise money in our own 
community for use in that community. But I don't know how I can 
go out and ask businesses or individuals to give me money to go 
help a coalition that's 200 miles away. I just don't know how 
that would work.
    There may be some coalitions that have enough money that 
they have extra money that they can use to help fund this new 
coalition of getting off the ground that they're mentoring. And 
I think that's the wise outlook because, you know, obviously, 
people are not stable and people move around. And just because 
we've--may have made progress in Noble County, there are people 
that move into Noble County all the time and we need to have a 
broader look, outlook. But it's--I don't know how I'm going to 
raise money to be able to help us mentor for the match. And 
that was the only comment that I had forgotten.
    Mr. Cummings. Judge, how did you, how did you get involved 
in this? I mean, I know what you said, that you had some people 
coming through your court, and the reason why I'm asking that 
is because I've noticed that there's a trend of more judges 
getting involved and I think that's great. I really do, 
because, see, you guys, you all see it up front and personal. 
You see the men and women come in front of you every day.
    And I often say that there are some of us who are blessed 
to be in certain places at certain times to be witnesses so 
that you can come before other people and tell them what you've 
seen when your neighbors might not normally see it unless it 
happened in their house or something like that. But they still 
would never see what you see. So I'm just wondering, how did 
that come about?
    Judge Kramer. It was just from seeing people. I got tired 
of seeing people that were--that needed to be fixed up and that 
were--had their lives destroyed. And I--you know, there needed 
to be something more than--I can send them to substance abuse 
treatment; and I can do things to try to maybe help. But you 
still can't really fix them, patch them up totally. And I think 
the key is to be engaged in prevention so they never get 
involved in the system to begin with.
    Mr. Cummings. Do you----
    Judge Kramer. I guess it was just more frustration out of 
not being able to put these people all the way back together 
again.
    Mr. Cummings. The dollars that you--I mean, you mentioned 
just a few minutes ago some lady that called you and said that 
she wanted you all's help because she was trying to do the same 
thing that you were doing. And apparently, I assume, she 
doesn't have dollars.
    Judge Kramer. Right.
    Mr. Cummings. So what--I mean, so do you think you are 
prepared now, after doing what you all have been doing all this 
time, to truly give her advice?
    Judge Kramer. I think so. I think we can--there are things 
that we can give her advice on how to go about it and maybe 
avoid the mistakes that we've made and you know, hopefully, 
hopefully help her.
    Mr. Cummings. Now, one of the things they talked about a 
little bit earlier is the Institute and how they would take 
best practices and use them to help other people. I take it 
that some of the things that you've learned you would be 
willing to share with the Institute.
    Judge Kramer. Right. Yeah. Exactly. The Institute--I guess 
I'm excited about the Institute for what it can do for us. 
We've been members of CADCA. And CADCA has been a tremendous 
resource for us, and I see this as really expanding upon that 
and giving us a lot of help and being able to help this woman 
maybe refer her to the Institute and get some specific advise 
for her from the Institute in--to help us help her.
    Mr. Cummings. Now, General, does your organization do some 
of what the Institute is going to do?
    General Dean. I guess the best way to answer that question 
is, you know, CADCA is a private non-profit organization, and 
to date has not received any Federal assistance.
    Mr. Cummings. I got all that. I understand that.
    General Dean. So the Institute will bring to--the Institute 
will bring to the field an expanded capability to take the 
research that Dr. Vereen talked about and put it into a usable 
manner so it can be delivered out to the field. So the answer 
to your question is CADCA has attempted to do for the field 
using the resources that it has, some of the things that the 
Institute will do in a more sophisticated and expanded way.
    Mr. Cummings. OK. Now, that leads me to this: the Institute 
will gather information. Again I'm trying to figure out how do 
we maximize our dollars and the use of them. Let's say the 
Institute established itself and assuming that you all are 
not--become the Institute, you know, I'm assuming that. Does--
do you foresee being able to use some information gathered in 
the Institute to help your organization do what you do?
    General Dean. Yes, I do. I envision a very close 
proximity--excuse me. A very close collaboration between the 
two organizations. Both benefiting each other, both with the 
goal of creating more stronger community coalitions. So the 
answer is, yes. I see a very close relationship, a close 
working relationship, whether that relationship is the result 
of CADCA managing the Institute or someone else managing the 
Institute there has to be a very close relationship.
    Mr. Cummings. So that would enhance your efforts and help 
you be able to do even more. Is that right?
    General Dean. That's correct.
    Mr. Cummings. Finally, Mr. Couch, I want to thank you for 
being here and thank you for your efforts. You're from my 
State, and I had to say something to you. And I want to 
congratulate you on what you're doing. And I really do, we all 
appreciate it very much. I didn't want you to take it personal 
when I talked about Montgomery County being the richest county 
and Baltimore--I don't want you to take that personal. I may be 
running Statewide some day. I don't want you to get up in the 
audience and say he beat up on Montgomery County. So you did 
understand that?
    Mr. Couch. I understand. You have my vote.
    Mr. Cummings. Thank you. Thank you very much, Mr. Chairman.
    Mr. Souder. I want to thank you all for coming but most 
importantly for the work that you do. There is no question, to 
restate Congressman Cummings earlier point, that this is one of 
our brightest hopes and success stories in the prevention 
field. And as we look to put more dollars in, if we're being 
very cautious with this it's that we want to build on it.
    We've had some problems with drug-free schools, but we've 
tried to amend that and make changes in the recent education 
bill to try to address that because it's clear we're all 
focusing on demand reduction in a way that we've never done 
that before. And it needs to be a key part of any component, 
and this is hopefully a way to strengthen that effort. And 
thank you for contributing to our hearing today. And with that, 
the hearing now stands adjourned.
    [Whereupon, at 1:28 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
